<html>
<title> - DOJ IG: HANDLING OF SEXUAL HARASSMENT AND MISCONDUCT ALLEGATIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                DOJ IG: HANDLING OF SEXUAL HARASSMENT AND 
                           MISCONDUCT ALLEGATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 14, 2015

                               __________

                           Serial No. 114-17

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                                ___________
                                
                    U.S. GOVERNMENT PUBLISHING OFFICE
94-542 PDF              WASHINGTON : 2015                                        
                      
__________________________________________________________________________________________                      
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0562756a45667076716d6069752b666a682b">[email&#160;protected]</a>  


                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
              Ryan M. Hambleton, Professional Staff Member
                      Sean Brebbia, Senior Counsel
                     Melissa Beaumont, Chief Clerk
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 14, 2015...................................     1

                               WITNESSES

The Hon. Michele M. Leonhart, Administrator, Drug Enforcement 
  Administration
    Oral Statement...............................................     6
    Written Statement............................................     8
The Hon. Michael E. Horowitz, Inspector General, U.S. Department 
  of Justice
    Oral Statement...............................................    24
    Written Statement............................................    26
Mr. Kevin L. Perkin, Associate Deputy Director, Federal Bureau of 
  Investigation
    Oral Statement...............................................    32
    Written Statement............................................    34

                                APPENDIX

Memo from Attorney General Eric Holder to all Department 
  Personnel on ``Prohibition on the Solicitation of 
  Prostitution'', entered by Mr. Chaffetz........................    88
DEA Memo Response to the DOJ Inspector General's Draft Report, 
  entered by Mr. Chaffetz........................................    89
Minority Oversight Committee Staff summary of New Internal DEA 
  Report on Colombian ``Sex Parties'', entered by Mr. Cummings...    90
Statement of Congressman Gerald E. Connolly (VA-11), entered by 
  Mr. Connolly,..................................................    93


                 DOJ IG: HANDLING OF SEXUAL HARASSMENT AND 
                        MISCONDUCT ALLEGATIONS

                              ----------                              


                        Tuesday, April 14, 2015

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                            Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
(chairman of the committee) presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Jordan, 
Walberg, Amash, Gowdy, Farenthold, Massie, Meadows, DeSantis, 
Mulvaney, Buck, Walker, Hice, Russell, Carter, Grothman, 
Palmer, Cummings, Maloney, Norton, Lynch, Connolly, Duckworth, 
Kelly, Lawrence, Lieu, Plaskett, DeSaulnier, and Lujan Grisham.
    Chairman Chaffetz. Good morning. The Committee on Oversight 
and Government Reform will come to order, and without 
objection, the chair is authorized to declare a recess at any 
time.
    We are here today to talk about some alarming problems at 
our country's premier law enforcement agencies. The latest 
report from the Department of Justice inspector general 
outlines a number of problems with the conduct of both law 
enforcement officers and the agencies that manage them.
    That report outlined a number of key problems. First, law 
enforcement personnel at home and abroad engaged in 
reprehensible sexual harassment and misconduct that jeopardized 
our national security.
    Second, the agencies they--where they work mishandled their 
responses to those incidents by failing to properly report 
them, leading to insufficient punishment.
    And, third, the FBI and the DEA tried to hide these 
incidents from the inspector general by improperly withholding 
information and encouraging employees not to cooperate with the 
inspector general.
    Hiding information from the inspector general is simply and 
totally unacceptable. The Department of Justice inspector 
general report documents a number of highly concerning findings 
about Federal law enforcement. One of the most shocking 
incidents Mr. Horowitz described in his report involved DEA 
agents in Colombia partying with prostitutes paid for by drug 
cartels. While the DEA agents were spending time with those 
prostitutes, local Colombian police were watching the agents' 
guns and property.
    The fact that this happened was bad enough, but none of 
these agents were really even punished by the DEA. Most of the 
agents involved were suspended for a few days and allowed to 
return to work with their security clearances in full.
    Based on the testimony we have read from the DEA 
Administrator, she says she doesn't have the power to simply 
fire these people. I don't buy it. The American public doesn't 
buy it. And for the thousands of men and women who serve 
honorably--they're patriotic, they work hard, they put their 
lives on the line--this administration, this DEA Administrator, 
has got to hold those people accountable and get them out of 
there.
    If this is the kind of behavior that they're going to 
engage in, it's totally unacceptable. They should not have a 
security clearance, and they should be fired.
    Some of these agencies compromised our national security 
and then essentially got a vacation. The punishment for 
engaging in this type of behavior was 2 to 10 days off paid 
leave--or nonpaid leave. That sounds like a vacation to me. It 
doesn't sound like punishment. To suggest that these people 
couldn't be fired or do something more severe is simply 
unacceptable.
    And, again, I want to remind our members. This is a matter 
of national security. We're talking about peoples' lives. And 
the DEA, as much as anybody, puts people overseas in very tough 
and difficult situations. But when we have bad apples who 
repeatedly do the same type of behavior, compromise our 
national security, then they need to lose their national 
security clearances, and they need to be fired.
    The IG report found that this is hardly an isolated 
incident. The report highlights repeated abuses of sexual 
misconduct, including unreported cases of ATF training 
instructors sleeping with their students, using government 
vehicles to facilitate inappropriate sexual relationships, and 
managers sexually harassing employees and asking them to watch 
pornography.
    The report also makes clear that when law enforcement 
agents engage in inappropriate and illicit sexual behavior, the 
agency they work for oftentimes just simply looks the other 
way. To use the IG's language, these cases of sexual misconduct 
are treated as, ``local management issues.'' In other words, 
they're basically swept under the rug.
    Adding to the concerns raised in this report is the fact 
that the DEA and the FBI tried to hide these incidents from 
their own inspector general. Both the DEA and the FBI went out 
of their way to impede and delay the inspector general's 
report. According to the report, the DEA and the FBI delayed 
responding to requests for information, provided heavily 
redacted documents, and even told their employees not to 
cooperate.
    For example, the inspector general asked the DEA to run 
more than 40 search terms to search their data base and 
identify relevant information. The three terms, three out of 
the more than 40 that they ran, included ``sex,'' ``prosti,'' 
and ``exposure.'' Not included were ``brothel,'' ``escort,'' 
``harass,'' ``rape,'' ``solicit,'' and the list goes on. Why 
exclude? Why exclude the search terms that the inspector 
general is asking for? It's not the DEA's responsibility to 
weed that out. Your job is to allow the inspector general to 
get in there and get his fingernails dirty and go figure out 
the truth. But that's not what happened.
    I want to put up a slide here.
    When the DEA finally did provide information after 
significant delay, in some cases, documents were so heavily 
redacted the IG couldn't even tell what the documents were 
about. This is the type of documentation that the inspector 
general was given by you at the DEA. And we want answers as to 
why that is. The good men and women who work at the Inspector 
General's Office do tough, difficult work. But they can't do 
anything if they get that kind of material from the DEA.
    And it's not just the DEA. It's the FBI. It's the other 
agencies as well. It's not acceptable.
    We have a lot of questions for our witnesses who are here 
today to testify on both behalf of the DEA and the FBI. It's 
incumbent upon the leadership of these law enforcement agencies 
to weed out employees who put our security at risk, embarrass 
the country, and break the law. To the good men and women, the 
overwhelming majority of men and women, who do their job in a 
patriotic hard-working way, put their lives on the line, God 
bless you. We need you. We love you. We care for you.
    But it's also irresponsible of management to not deal with 
the bad apples. People are going to make mistakes. OK? But 
these weren't simple mistakes. This went on and on and on. 
Multiple reports of sex parties, of loud parties, to the point 
that the landlord was actually complaining back to our 
government about how out of control our own Federal employees 
were serving overseas.
    Again, the people who cause these problems I recognize are 
a small population--a small percentage of the total population 
who have not been held accountable for their dangerous lapses 
in judgment.
    I would ask unanimous consent. I would like to enter two 
documents into the record.
    First of all is from our Attorney General Eric Holder on 
April 10 of this year, a Prohibition on the Solicitation of 
Prostitution. How bad is it? One of his last acts as the 
Attorney General, Eric Holder has to actually go forward and 
issue a memorandum explaining to people that you can't do this. 
Again. It's almost embarrassing that he has to do this. I 
appreciate that he did it to clarify if there's some 
misunderstanding out there. But I'd like to enter that into the 
record.
    Chairman Chaffetz. I also want to enter into the record a 
document response--this is to the assistant inspector general 
for evaluations and inspections of the Office of Inspector 
General to Nina--I'm going to slaughter her last name--
Pelletier, I guess.
    Chairman Chaffetz. And it's from Michael Dixon, who is the 
acting deputy chief inspector, Office of Inspection, saying 
that--I'm going to read this quote here from the very last 
line: DEA did a second review of the cases the OIG reviewed to 
determine if the Office of Professional Responsibility had 
appropriately and thoroughly investigated these allegations. It 
was found through the review that the investigations were 
investigated properly through DEA's disciplinary process 
related misconduct--basically telling the inspector general 
that, yes, we did everything we could. That it was properly 
moved--investigated properly through DEA's disciplinary 
process, and it's a sad day for the DEA.
    With that, I will now yield to the gentleman from Maryland, 
the ranking member, Mr. Cummings, for 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    And set forth, Mr. Chairman, at the beginning of the 
inspector general's report is a well-known doctrine for law 
enforcement officers. It simply says, ``Given the nature of 
their work, Federal law enforcement employees are held to the 
highest standards of conduct and must be accountable for their 
actions both on and off duty.'' Although this tenet should be 
obvious, it bears repeating here today. And it bears repeating 
every day. The inspector general's report details conduct that 
is simply deplorable for anyone, let alone law enforcement 
officials serving the United States of America.
    The report describes allegations that a Colombian police 
officer, ``arranged sex parties,'' ``with prostitutes funded by 
the local drug cartels for these DEA agents at their 
government-leased headquarters or quarters.''
    Although the inspector general's report describes 
activities between 2005 and 2008, last night our committee 
obtained new documents showing that some of these allegations 
were made far earlier, and some date back as early as 2001. In 
response to the committee's request, the DEA has now produced 
to the committee 88 internal reports issued by its Office of 
Professional Responsibility. One of these reports in 
particular, case number 20120085, goes into great detail about 
these allegations. However, the agency has warned that 
releasing the entire report could, ``expose complainants, 
witnesses, and victims.'' So we must summarize its findings 
today.
    This new internal report details years of allegations 
beginning in 2001 that portray DEA agents as completely out of 
control. They appear to have fraternized with cartel members, 
accepted lavish gifts, and paid for prostitutes with no concern 
whatsoever for the negative repercussions with security 
vulnerabilities they created. This new internal report 
describes not one or two isolated incidents but literally 
dozens of parties with prostitutes in which DEA agents used 
government funds and government offices.
    Mr. Chairman, my staff prepared a summary of this new 
internal report, and I ask unanimous consent that it be 
included in the hearing record.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Cummings. This new internal report details a truly 
breathtaking recklessness by DEA agents who are sworn to 
protect our country. Today I want to know how these egregious 
misconduct incidents could have continued for so long, for the 
better part of a decade, without being addressed. The head of 
this agency, Michele Leonhart, is here with us today. Given her 
extended tenure at DEA during the same timeframe of these 
abuses, we will have very direct questions for her. The 
Administrator was nominated by President Bush in 2003 to serve 
as Deputy Administrator of DEA. She began serving as Acting 
Administrator in 2007, and President Bush nominated her to 
serve as the Administrator in 2008. She was nominated again by 
President Obama and confirmed by the Senate in 2010.
    The inspector general reports, says that ``The DEA 
supervisor has treated alleged sexual misconduct and sexual 
harassment as a local management or performance-related 
issue.'' It also finds that when the Administrator learned 
about these allegations, her agency imposed extremely light 
penalties. For example, when she was informed about wild 
parties involving prostitutes, she, ``counseled the regional 
director for failing to report the allegations.'' That was it. 
Just counseling. No other disciplinary actions.
    One critical question for the Administrator is what women 
who work in these law enforcement agencies must think. With 
only counseling sessions and suspensions of 2 weeks or less for 
misconduct like this, what incentive do women employees have to 
report sexual harassment by their supervisors?
    So, on Friday, the Attorney General sent a letter to the 
committee outlining steps to address the issues. And we're very 
pleased to receive that letter. These included reexamining the 
security clearances of those involved, reviewing DEA procedures 
when investigating misconduct, and prohibiting the solicitation 
of prostitution regardless of whether it may be legal overseas. 
These steps are critical, but they are clearly long, long 
overdue if the first instances of this misconduct occurred in 
2001.
    Finally, let me note that these problems transcend 
politics. On March 27, Chairman Chaffetz and I wrote a 
bipartisan letter to the DEA announcing our investigation, and 
we are fully committed to working together to investigate these 
incidents, how the agency responded, and whether additional 
steps are needed to help prevent this misconduct from ever 
happening again.
    And, with that, Mr. Chairman, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    We will hold the record open for 5 legislative days for any 
member who would like to submit a written Statement.
    We will now recognize our first and only panel of 
witnesses.
    We are pleased to welcome the honorable Michele Leonhart, 
Administrator of the Drug Enforcement Agency; the honorable 
Michael Horowitz, inspector general of the United States 
Department of Justice; and Mr. Kevin Perkins, Associate Deputy 
Director of the FBI, the Federal Bureau of Investigation. We 
welcome all of you and thank you all for being here.
    Pursuant to committee rules, all witnesses will be sworn 
before they testify. If you'll please rise and raise your right 
hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you.
    Let the record reflect that all witnesses answered in the 
affirmative.
    In order to allow time for discussion, we would appreciate 
limiting your testimony to 5 minutes. Your entire written 
Statement will be made part of the record.
    So the DEA Administrator, Ms. Leonhart, we will recognize 
you first.

                       WITNESS STATEMENTS

         STATEMENT OF THE HONORABLE MICHELE M. LEONHART

    Ms. Leonhart. Chairman Chaffetz, Ranking Member Cummings, 
distinguished members of this committee, thank you for the 
opportunity to discuss the Department of Justice Office of the 
Inspector General's report on sexual harassment and misconduct 
allegations by the Department's law enforcement components.
    DEA has a single mission: To enforce our Nation's drug 
laws. Our more than 9,000 employees, including over 4,600 
special agents, are dedicated to this single mission, and each 
one of us took an oath, the same one I took over 30 years ago, 
to serve the citizens of the United States with honor, 
professionalism, and pride.
    DEA personnel located in over 300 offices around the world, 
including 67 foreign countries, are doing extraordinary work 
under often difficult and dangerous circumstances. And this 
includes the investigation and arrest of leaders of the most 
violent and sophisticated drug cartels in the world. 
Unfortunately, poor choices made by a few individuals can 
tarnish the reputation and overshadow the outstanding work 
being done at the DEA.
    I want to assure the members of this committee that, like 
you, I am disgusted, I am appalled, by the behavior described 
in the inspector general's report. And to see the integrity of 
my agency and of Federal law enforcement, which I have been a 
part of for nearly my entire professional life, damaged by 
these allegations has not been easy. This conduct is a 
violation of the high professional standards of conduct that 
the men and women of the DEA are held to and undermines our 
effectiveness in fulfilling our mission. And, as noted in the 
report, this behavior is contrary to the behavior of the 
overwhelming majority of those at DEA.
    Although the OIG audit generally found that there were 
relatively few reported allegations of sexual harassment and 
sexual misconduct, the serious allegations OIG highlight are 
certainly troubling and describe behaviors that cannot be 
ignored.
    In particular, the allegations that agents assigned in 
Bogota engaged in prostitution and accepted gifts from drug 
traffickers was pursued by our Office of Professional 
Responsibility. However, the resulting investigation left some 
questions unanswered. Even though the events in question 
occurred between 2001 and 2004 and were not reported and 
investigated until 2010, it is nevertheless important that we 
hold our employees to the highest standards. And, in this 
instance, I assure you that I was quite disappointed in the 
penalties imposed.
    However, consistent with the protections afforded to 
employees under civil service laws, I do not have ability to 
change the imposed penalties. I can and do, however, ensure 
that disciplinary actions are appropriately noted in an 
employee's personnel file, which is taken into consideration 
when that employee is considered for future positions within 
the DEA. This behavior should not be rewarded.
    As outlined in my written Statement, DEA concurred with and 
has begun implementing changes responsive to each of the OIG 
recommendations. However, it is also essential that we make 
clear to all employees that this behavior is not acceptable. It 
is my hope that the additional training and guidance that we 
have provided to all personnel, particularly those stationed 
overseas, will prevent similar incidents from occurring in the 
future.
    DEA has taken specific concrete steps to accomplish this, 
including ensuring that it is clearly understood by all DEA 
employees that this kind of behavior is unacceptable; outlining 
the steps employees and supervisors must take when incidents 
occur; increasing training for all employees, especially those 
employees assigned overseas; further clarifying the guidelines 
for disciplinary offenses; and improving internal procedures so 
that appropriate individuals in field management and the Office 
of Security Programs and in the Office of Professional 
Responsibility are made promptly aware of allegations and can 
take appropriate action in a timely manner.
    In closing, I want to reiterate that the kind of activity 
reported by the OIG has not and will not be tolerated. OIG 
plays an important role in reviewing our policies and 
procedures, and I am committed to working with the OIG to 
ensure they have access to the documents they need to do their 
work.
    We have taken steps to address this kind of behavior, and 
moving forward, DEA will respond to this kind of misconduct 
head on and with the decisive resolve you and the public 
expect. We are open to further recommendations so that we can 
continuously improve our policies, policies that demand the 
highest levels of personal and professional integrity from our 
employees.
    And thank you again for the opportunity to address you 
today.
    [Prepared Statement of Ms. Leonhart follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Chaffetz. Thank you.
    I now recognize Mr. Horowitz for 5 minutes.


           STATEMENT OF THE HONORABLE MICHAEL HOROWITZ


    Mr. Horowitz. Mr. Chairman, Ranking Member Cummings, 
members of committee, thank you for inviting me to testify 
today.
    Federal agents are held to the highest standards of 
conduct, both on and off duty. As a former Federal prosecutor 
and as an inspector general, it has been my experience that the 
overwhelming majority of Department agents meet those high 
standards and perform their work with great integrity and 
honor, thereby helping keeping--keep our communities safe and 
our country safe. Nevertheless, we find instances where law 
enforcement agents engage in serious misconduct and even 
criminal violations, affecting the agency's reputation, 
potentially compromising prosecutions, and possibly affecting 
the security of the agents and agency operations.
    Furthermore, misconduct that involves sexual harassment 
affects employee morale and creates a hostile work environment.
    Following the incidents during the President's trip to 
Colombia in 2012, the OIG conducted two reviews, one relating 
to Department policies and training involving off-duty conduct 
by employees working in foreign countries, and one relating to 
the handling of allegations of sexual harassment and misconduct 
by the Department's law enforcement components.
    Our off-duty conduct report found a lack of Department-wide 
policies or training requirements pertaining to off-duty 
conduct whether in the United States or in other countries. 
This was particularly concerning, given that we made 
recommendations back in 1996 in an OIG report involving 
allegations at the time about Department law enforcement agent 
off-duty conduct. Despite those earlier recommendations, we 
found little had changed in the intervening two decades. We did 
find, however, that the FBI made changes, including providing 
comprehensive training for its employees to help them make day-
to-day decisions--to make appropriate day-to-day decisions 
about off-duty conduct while working abroad. However, we found 
that the other three Department law enforcement components 
contained little or no information about off-duty conduct 
before sending their employees abroad. Having only one of four 
law enforcements components effectively preparing its employees 
for overseas assignments demonstrates the need for Department-
wide training and policies.
    In March 2015, we issued our report on the nature, 
frequency, reporting, investigation, and adjudication of 
allegations of sexual harassment or misconduct in the 
Department's four law enforcement components. The report 
identified significant systemic issues that require prompt 
corrective action by the Department. These issues include a 
lack of coordination between internal affairs offices and 
security personnel; failure to meet misconduct--to report 
misconduct allegations to component headquarters; failure to 
investigate allegations fully; weaknesses in the adjudication 
process; and weaknesses in detecting and preserving sexually 
explicit text messages and images.
    Together our reviews demonstrate the need to improve 
disciplinary and security processes as well as to clearly 
communicate the DOJ's--to communicate to DOJ and components' 
employees the expectations for employee conduct. Strong and 
unequivocal action from Department and component leadership at 
all levels is critical to ensure that Department employees meet 
the highest standards of conduct and are held fully accountable 
for any misconduct.
    As we also described in our March 2015 report, the failure 
by the DEA and FBI to promptly provide information we requested 
significantly impeded our review. Both agencies raised baseless 
legal objections and only relented when I elevated the issue to 
agency leadership. However, even then, the information we 
received was still incomplete. We, therefore, cannot be 
confident that the FBI and DEA provided us with all information 
relevant to this review.
    In addition, after we completed our draft report, we 
learned that the DEA failed to conduct the entire search of its 
data base we had requested. In order to conduct effective 
oversight, the OIG must have timely and complete access to 
documents and materials. This review starkly demonstrates the 
dangers in allowing the Department and its components to decide 
on their own what documents they will share with the OIG. The 
delays we experienced impeded our work, delayed our ability to 
discover the significant issues we ultimately identified, 
wasted Department and OIG resources, and affected our 
confidence in the completeness of our review.
    Unfortunately, this was not an isolated incident. Rather, 
we faced repeated instances in which our timely access to 
records has been impeded. Congress recognized the significance 
of this impairment and included a provision in the recent 
appropriations act, section 218, prohibiting the Department 
from impeding our timely access to records. Nevertheless, the 
FBI continues to proceed exactly as it did before section 218 
was adopted, spending appropriated funds to review records to 
determine if they should be withheld from the OIG.
    We're approaching the 1-year anniversary of the Deputy 
Attorney General's request to the Office of Legal Counsel for 
an opinion on those matters, yet that opinion remains 
outstanding, and we have been given no timeline for its 
issuance. Although the OIG has been told that the opinion is a 
priority, the length of time that has passed suggests 
otherwise. Instead, the status quo continues. The American 
public deserves and expects an OIG that is able to conduct 
rigorous oversight of the Department's activities. 
Unfortunately, our ability to conduct that oversight is being 
undercut every day that goes by without a resolution of this 
dispute.
    I want to thank the committee again for its bipartisan 
support for our work, and I have--would be pleased to answer 
any questions that you may have.
    [Prepared Statement of Mr. Horowitz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]   
        
    Chairman Chaffetz. Thank you, Mr. Horowitz.
    I will now recognize Mr. Perkins for 5 minutes.


                   STATEMENT OF KEVIN PERKINS


    Mr. Perkins. Thank you, Mr. Chairman.
    Good morning, Chairman Chaffetz, Ranking Member Cummings, 
and members of the committee. Thank you for the opportunity to 
appear before you today to discuss issues raised in the 
inspector general's audit entitled ``The Handling of Sexual 
Harassment and Misconduct Allegations by the Department's Law 
Enforcement Components.''
    The FBI's policy on sexual harassment and sexual misconduct 
is very simple: The FBI does not tolerate sexual harassment or 
sexual misconduct within the ranks. The FBI has a robust 
disciplinary process guided by well-established policies, 
procedures, and practices. It consists of trained special 
agents in the Inspection Division's Internal Investigations 
Section, who conduct thorough investigations of employee 
misconduct. When the investigation is completed, a team of 
experienced lawyers in the FBI's Office of Professional 
Responsibility take over, reviewing the investigative materials 
and determining whether applicable policies, rules, 
regulations, laws, or other legal standards were violated and, 
if so, what penalty should be imposed on employees in question, 
up to and including dismissal.
    In addition, the Office of the Inspector General reviews 
all allegations of misconduct at the FBI prior to any 
investigation being initiated and all final adjudications of 
misconduct at the FBI are reported on a regular basis to the 
OIG.
    We are pleased that the Office of the Inspector General 
found relatively few reported allegations of sexual harassment 
and sexual misconduct in the Department's law enforcement 
components for fiscal years 2009 through 2012. In fact, the OIG 
found that the FBI had the lowest rate of this type of 
misconduct across the components. While we strive to have no 
cases of sexual harassment or misconduct, we have and we will 
continue to implement measures to better address these types of 
allegations.
    We are also pleased that the OIG's audit recognizes the 
FBI's coordination between our internal investigations section 
and our security divisions as a best practice to ensure that 
misconduct allegations are evaluated for potential security 
concerns, including continued eligibility to hold a security 
clearance.
    Notwithstanding these findings, there are improvements to 
be made. We must always look to improve and evolve as an 
organization, and we appreciate the OIG's recommendations for 
making our process better.
    As a result, the FBI concurs with the recommendations in 
the OIG's report. The FBI takes very seriously our obligation 
to enable Congress and the OIG to conduct effective oversight 
of all of our activities. We work closely with the OIG staff to 
ensure that we are responsive to their requests and that issues 
are identified and promptly resolved.
    You may also be aware that we have a good-faith 
disagreement with the OIG regarding what law requires with 
respect to providing FBI documents that have been obtained 
pursuant to provisions of law such as the Wire Tap Act, the 
Bank Secrecy Act, and those related to grand jury proceedings. 
We have been completely transparent with the OIG and the 
leadership of the Department of Justice with respect to our 
legal disagreement and are presently awaiting the Office of 
Legal Counsel to render an opinion as to the correct reading of 
the law.
    In the interim, we are giving the OIG an assumption of 
access to these--in these audits with respect to title III, 
rule 6(e), and FCRA materials. Senior leadership has also 
directed that our internal business process consulting group 
rigorously evaluate our processes to ensure that we are as 
effective and efficient as possible in providing the inspector 
general with requested documents in a timely fashion consistent 
with the law.
    Chairman Chaffetz, Ranking Member Cummings and members of 
the committee, I thank you for the opportunity to testify 
before you today concerning these--our commitment to ensuring 
allegations of sexual harassment and misconduct are addressed 
in a prompt, thorough, and equitable manner. We take our 
responsibilities on this topic very seriously and appreciate 
your interest in these matters.
    Now I'm happy to answer any questions you may have.
    [Prepared Statement of Mr. Perkins follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
       
    Chairman Chaffetz. Thank you.
    I now recognize myself for 5 minutes.
    Mr. Perkins, I totally disagree with your assessment that 
you're being open and transparent and providing access to the 
inspector general. That is a topic we will continue to discuss 
today, but I find your comments to be totally inconsistent with 
what the inspector general is telling us, and we need to hash 
that out. It's one of the reasons that you're here today. Glad 
that you're here, but my questions--I want to focus with the 
DEA here for a moment.
    Do you have any questions, Administrator, as to the 
accuracy of the OIG report? You don't question the accuracy of 
the report. Do you?
    Ms. Leonhart. I don't question the accuracy.
    Chairman Chaffetz. So this included allegations and 
examples of DEA agents participating in so-called sex parties 
where local police were watching DEA equipment, which included 
a, ``loud party incident'' involving what one would consider 
bad judgment for allowing prostitutes and allowing those in 
close proximity with DEA agents to be actually in these agents 
room and housing, you wouldn't then have a problem with these--
this going away party that was--involved a DEA assistant 
regional director at his residence. You wouldn't disagree, 
then, with the assessment that they had multiple accounts of 
the landlord complaining about the loud parties and whatnot 
were going on there.
    Is it wrong for prostitutes to be in government housing?
    Ms. Leonhart. Well, first of all, it's deplorable behavior 
by those agents.
    Chairman Chaffetz. But is it a violation of policy?
    Ms. Leonhart. It's absolutely a violation of policy.
    Chairman Chaffetz. Is it wrong to have a foreign national 
in close proximity to a DEA agent, close to their guns, 
personal effects, computer, smart phones? Does that pose any 
sort of security risk?
    Ms. Leonhart. Of course, it poses security risks, and that 
is why it's--these are very serious allegations.
    Chairman Chaffetz. Did you do any investigation as to the 
age of the women that were involved? Were they just simply 
there for entertainment?
    Ms. Leonhart. The investigation, although it's 10 years 
later, the investigation----
    Chairman Chaffetz. Don't try to paint a picture that this 
is one incident 10 years ago. There's an incident, for 
instance, in July 2009, for instance, where the DEA agent in 
Bogota was accused of physically assaulting a prostitute over a 
payment dispute. A security guard witnessed this agent throwing 
a glass and hitting the woman. This agent then claimed that the 
woman had had a seizure while she was in the bathroom and cut 
herself on a candlestick, but later admitted that, yes, he had 
engaged with a prostitute. And you know what the punishment for 
this person was? Fourteen days unpaid leave. Go on vacation for 
2 weeks.
    You can sit here and cry a pretty picture about how 
deplorable it is, but your actions suggest otherwise because 
there was not the consequence that should have happened. This 
person is imposing a national security risk, engaging in 
behavior that is just--it's embarrassing that we have to talk 
about this. It's an embarrassment that you don't fire that 
person. It's an embarrassment that you don't revoke his 
security clearance.
    Why can't you revoke their security clearance? What 
prohibits you from revoking that person's security clearance?
    Ms. Leonhart. Everything you've said about the behavior I 
completely agree with.
    As far as the disciplinary penalties that were handed out 
in that case, I'm very disappointed in that and the----
    Chairman Chaffetz. You're the administrator.
    Ms. Leonhart. The system that's set up following civil 
service laws, I don't--I don't fire. I can't----
    Chairman Chaffetz. Can you revoke their security clearance?
    Ms. Leonhart. I can't revoke their security clearance. I 
can ensure that there's a mechanism----
    Chairman Chaffetz. Why can't you?
    Ms. Leonhart [continuing]. Like I did after the Cartagena 
incident, make sure that there is a mechanism in place for 
those security--for a security review which resulted in those 
three agents having their security clearances revoked, and they 
were fired.
    Chairman Chaffetz. And here's the problem. Here's the 
concern I have. High profile. It's in all the media. 
Everybody's reporting about the Secret Service engaging with 
prostitutes. You all get nervous about it, and those people 
have some discipline, but when it's quiet and nobody hears 
about it, and it comes across your desk and your senior staff, 
can you show me another example where people were engaging in 
prostitution and creating these national security problems 
where you revoked their security clearances? That's what I want 
to see. Because in this case, that's not what happened. That 
wasn't too long ago. You're not disputing any of the facts that 
show up in the report. There's nothing that--there's no--is 
there a statute of limitations? Is there a limit that you can't 
reach further back? And yet you allow this person who engages a 
prostitute, throws glass at her, breaks the skin, there's blood 
all over the place, and they're still employed at the DEA? And 
you allow that. You're allowing that.
    Did you--I mean, did you try to fire them? Did you try to 
revoke their security clearance? Do we need to change that law? 
What do we need to do?
    Ms. Leonhart. Well, you could look at an exemption like the 
FBI has because the current disciplinary process, myself and 
other directors of Federal law enforcement agencies are not 
allowed to invoke ourselves in the disciplinary process. If we 
were exempted or if there was other legislation passed that 
would allow that, that would allow our directors of Federal law 
enforcement to take that action. The same thing that--with a 
result like Cartagena, where they have done these deplorable 
activities, that it is investigated, and that a decision is 
made by the agency without appeal rights to the MSPB.
    Chairman Chaffetz. OK. So my concern is high profile, you 
take action. When it's not so high profile and there's a woman 
involved, you don't take action, and that's a concern, but I 
hear what you're saying.
    The last question, because I've exceeded my time. If you 
are both, the FBI and the DEA, sincere about rooting out this 
problem and finding solutions, then you need to allow the 
inspector general to look at the information. Why do you 
continue to prohibit him from seeing that information? Why do 
you hold it back? Why not do all 45 search terms? Why did you 
only do three. So I really got to question your sincerity about 
getting out and rooting out this problem if you don't even know 
the extent of the problem. You don't even know the extent of 
the cases because you won't even allow the inspector general 
and his staff to actually look at the cases that are there. 
You're limiting the inspector from doing their job, which is to 
help you, help us, help them, help the rest of the agency. 
That's--I need you to both explain that answer to me, and then 
I'll yield to the ranking member.
    Go ahead.
    Ms. Leonhart. The--moving forward, because there's a number 
of things that I put in place after Cartagena, and you should 
know that the other incidents I learned about after Cartagena, 
but they had already been through the system, what we put in 
place in Cartagena moving forward, is the model for how we will 
handle----
    Chairman Chaffetz. Is the model to impede the ability of 
the inspector general to look at the information?
    Ms. Leonhart. I'm talking about the----
    Chairman Chaffetz. I'm talking about the IG. Why can't the 
IG look at this?
    Ms. Leonhart. And know that those cases, when they were 
first reported, are reported immediately over to the OIG. They 
handed those cases back to us to handle as management--as a 
management review. We felt that the behavior was so outrageous 
they needed to be investigated. What we've put in place----
    Chairman Chaffetz. But you went back and investigated them 
again and still came to the same conclusion, that we would have 
came to this same conclusion.
    My time is far exceeded, but you gave them 2 to 10 days 
paid leave, you put them on vacation, you didn't take the 
disciplinary action.
    I've got to yield to the gentleman from Maryland.
    Oh. We're going to go actually to Ms. Plaskett first. 
You're now recognized for 5 minutes plus very generous overtime 
if you need it.
    Ms. Plaskett. Thank you, Mr. Chairman, Mr. Ranking Member. 
Good morning to you all.
    You know, of course, we all find the reports of sexual 
harassment and misconduct, particularly, I think, the actions 
of the DEA spanning back to 2001, extremely troubling, and the 
American people seem understandably outraged over this 
behavior, and particularly women.
    The IG report States, ``Sexual misconduct and sexual 
harassment in the workplace also affect employee morale and 
hamper employees'' ability to have and maintain effective 
working relationships.''
    Mr. Horowitz, can you explain how sexual harassment and 
sexual misconduct can impact employee morale.
    Mr. Horowitz. Well, it has a significant debilitating 
effect on morale, particularly when the individuals in the 
workplace try to report the information and see no results. And 
that's one of the things we highlight here that's particularly 
concerning when, for example, in three of the incidents we 
identified, in one of them we learned about it or it was 
reported----
    Ms. Plaskett. And which agency is that?
    Mr. Horowitz. These are on the three matters involving DEA 
that we have been discussing.
    One is reported in June 2010 through an anonymous letter. 
That's how that information gets forwarded. The 2001 to 2004 
events that are referred to in the report as the sex parties, 
those don't get reported until 2009, 2010, when the corrupt law 
enforcement officers are charged.
    Ms. Plaskett. And what's the rationale that you were given 
as to why they weren't reported?
    Mr. Horowitz. Because they were dealt with locally, 
reviewed locally and didn't need to be reported to----
    Ms. Plaskett. And were they dealt with?
    Mr. Horowitz. They were not, and that was the concern we 
identified.
    And on the third incident that we report there, that's sent 
to the OIG and DEA by the State Department, not through the 
DEA. Employees in the organizations not only need to know they 
have a safe work environment to go to and a nonhostile work 
environment, but they need to know they can come forward, 
report allegations, and that they'll be taken seriously and 
that they'll be addressed promptly.
    Ms. Plaskett. OK. Thank you.
    Ms. Leonhart, you spoke about how your own outrage being a 
law enforcement officer for 30 years. I completely understand 
that. I was raised by a New York City police officer who says 
every good cop hates the most a bad cop because they make all 
the good cops--it completely taints everyone else. But do you 
agree with the IG that sexual harassment negatively impacts 
morale, and have you seen that in your agency?
    Ms. Leonhart. I know it has the potential to do that, and 
that is why several directives, reminders----
    Ms. Plaskett. But I didn't ask you its potential. I asked 
you has it affected the morale.
    Ms. Leonhart. In the offices where the employees attempted 
to report misconduct and there was nothing that happened, it 
was not reported up and investigated, I can imagine that those 
employees felt they lost faith in the agency.
    In a number of other cases, however, where they are 
reported up. They are investigated. The supervisors take 
immediate action, help the employee who has come forward with a 
complaint. I see over my 35 years in DEA a huge change, more 
willingness to report, more willingness for supervisors to help 
that employee who came forward with it, and my job is to work 
on the disciplinary end to make sure that, as these are 
reported, as they're thoroughly investigated, that the proper 
discipline is handed out.
    Ms. Plaskett. Well, that's interesting that you say that 
it's your job to deal with the discipline because you've just 
Stated earlier to the chairman that you don't have any say over 
the discipline. So which one is it? Do you or don't you have 
say over the discipline of those individuals?
    Ms. Leonhart. I am not in the process for investigating, 
proposing, or handing out discipline. What I can do is what I 
did a year ago. I sent out a directive to every DEA employee 
and said, Here are the conduct issues I am concerned about. 
They must be reported. They're not acceptable. This is not 
acceptable behavior in about five or six different areas, and I 
sent a strong message to the board of conduct and to the 
deciding officials that in these types of instances, there 
should be severe discipline handed out.
    Ms. Plaskett. And what do you--what would you consider 
severe discipline?
    Ms. Leonhart. I would consider what happened with the 
Cartagena agents to be severe discipline.
    Ms. Plaskett. What about the agents who were given 2 to 10 
days of paid leave?
    Ms. Leonhart. I'm not happy with that. I am not in the 
disciplinary process. I am very disappointed----
    Ms. Plaskett. OK. Wait a minute. You mean, so you're not in 
the disciplinary process, but you're responsible for the 
discipline?
    Ms. Leonhart. I'm responsible for the whole agency. So I am 
responsible to set up a mechanism to send messages to our 
employees to hold people accountable if they're not going to--
if they're going to conduct this misbehavior, that they face 
significant discipline. And that is what I have done over the 
last couple of years to send that message to make sure our 
employees, No. 1, report--report their allegations; and No. 2, 
hold managers accountable for not reporting; and No. 3, make 
sure that we set up a process, have good OPR inspectors. I was 
one at one time. Do the investigation so that our disciplinary 
process, our board of conduct that proposes, and our deciding 
officials have all the information they need to be able to 
impose severe discipline.
    Ms. Plaskett. But don't you believe that the morale of your 
agents and the good men and the women of that agency would have 
been better served, and they would have believed that you 
really stood behind that if the information had been more fully 
and quickly forthcoming to the IG? How can you say that you 
are--you weren't pleased with the discipline when you and your 
agency impeded the investigation at the IG level?
    Ms. Leonhart. The IG gave the investigation back to DEA. 
As----
    Ms. Plaskett. But they gave you the portion of it related 
to disciplining the individuals, not to investigating the 
systemic problems in the structure of your agencies.
    Ms. Leonhart. No. They gave us back the investigation and 
said that they would not take it. It looked like a management 
issue. We investigated as misconduct, and as we investigated it 
and we learned more and more by interviewing a number of 
witnesses in the old Bogota case, the information that was put 
together, the interviews, all of that was entered into the 
discipline system. And I am very disappointed that our 
discipline system did not do what it needed to do. And we have 
to fix it, and I've put mechanisms in place moving forward to 
make sure that that does not happen again because I don't 
believe that that discipline that was doled out in those cases 
that Chairman Chaffetz mentioned is even close to what it 
should be.
    Ms. Plaskett. OK. I've run out of more than the generous 
time that you've given me, Mr. Chairman, ranking member. But 
it's my assessment that the discussion here and the actions are 
at a complete disconnect.
    Chairman Chaffetz. Thank you the gentlewoman.
    I now recognize the gentleman from Florida, Mr. Mica, for 5 
minutes.
    Mr. Mica. Thank you, Mr. Chairman, and let me ask--let me 
followup on some of the questioning that's taken place as to 
whether there was a full investigation of this whole matter.
    You claim, Administrator, that there was a full 
investigation of the matter--all of these sexual harassment--
sexual assault issues that have been raised that were--that 
were part of the inspector general's review. You claim--again, 
just tell us. You believe they were fully investigated.
    Ms. Leonhart. I believe that they were investigated. I have 
concerns about the completeness, thoroughness, of a couple of 
the investigations.
    Mr. Mica. So then you agree with Mr. Horowitz, the OIG, 
that there was not a thorough investigation of all of the 
incidents?
    Ms. Leonhart. I agree that some of the incidents were not 
thoroughly investigated and fully investigated, yes.
    Mr. Mica. OK. And that was your position too and the 
assumption that I have from your report.
    Mr. Horowitz. That's correct, Congressman.
    Mr. Mica. OK. Well, that in itself raises great questions 
when the inspector general says that the--these incidents were 
not fully investigated. So that, to me, is a big issue right 
there.
    Chairman Chaffetz. Will the gentleman yield?
    Mr. Mica. Yes, I yield for----
    Chairman Chaffetz. And I hate to do this to you. On March--
but I just was handed something. March 26 of this year, you, 
Ms. Leonhart, as the administrator, sent this email out within 
your agency. And you said these allegations were fully 
investigated by the DEA Office of Professional Responsibility.
    Yield back.
    Mr. Mica. Again, there seems to be a conflict between again 
what the chairman has just cited, what we've had as previous 
testimony, and what the inspector general's--OK. That being 
said--and I have some questions too.
    You say you don't have the authority, but you took the 
authority post-Cartagena. It looks like before Cartagena--and 
you've been there since 2010. Is that right?
    Ms. Leonhart. That's correct.
    Mr. Mica. You didn't just arrive on the block, and you see 
the conduct that took place in 2006, 2008, the sex parties, the 
assaults, all of these things that were going on, Cartagena 
was, what, 2 years ago.
    Ms. Leonhart. 2012.
    Mr. Mica. Three years ago. Well, what happened is you set 
up a culture within the agency that you could get away with 
this, and you were there. You must have known some of this was 
going on. Cartagena brought it to the press and our attention 
that--the size and scope of what was going on.
    The thing that concerns me is, before that, some of the 
people got--who were involved, looks like if you attended a sex 
party, one report here, one agent was cleared of any 
wrongdoing. Seven of 10 agents ultimately attended to the 
parties and engaging with prostitutes. So it looked like the 
penalty--they got suspensions of a few days. And I think the 
most was like 6 days up to that time. So that was sort of the 
standard operating procedure while you were there until 
Cartagena. That's the kind of penalty they were getting. Right?
    Ms. Leonhart. If I can explain, Congressman. The first--the 
first I heard of any of these sex parties or the behavior 
that's described in the reports was actually Cartagena. When 
Cartagena happened, I became concerned, is this systemic? Has 
this happened before? And we went back and we took a look at 
where this activity had occurred, if anybody had been 
disciplined for it, and we found one Bogota case.
    Mr. Mica. Well, again, we have instances, and we have 
penalties. Most of them only got minor penalties, and it was 
known that some of this had posed great security risks. I guess 
drug folks were paying for some of this activity, and they got 
anywhere from 4 to 6 days. Only a suspension of 15 days or more 
is considered serious for adverse employment action. So those 
people went right on working at that time.
    So what I'm saying is a culture existed while you were 
there up to Cartagena, and there were low penalties. After 
Cartagena, you did some--you took some action. Some people were 
actually fired. Is that correct?
    Ms. Leonhart. Yes. That's the first case that came----
    Mr. Mica. And the difference, folks, members of the 
committee, this is the same thing whether it's Secret Service, 
VA, IRS, HUD, any agency. She doesn't have the right to 
summarily fire people. She has to go through a process, Merit 
System Protection, the protections of Title V, a Federal act 
created by Congress. Unless you change that law and give these 
people the ability to fire people summarily when they are found 
in, you know, a proper process and a speedy process to violate, 
whether it's sexual assault, sexual harassment, you'll have 
this continue--all these problems continue across the scope of 
all of our civil service system. The only one exempt from that, 
I understand, is FBI. I didn't get enough time to ask you 
questions about how many people you've fired, but we'll get 
that in the record at some point I hope.
    Yield back.
    Chairman Chaffetz. Thank the gentleman.
    I now recognize the ranking member--I'm sorry--Mr. Lynch, 
the gentleman from Massachusetts, who is the ranking member of 
the Subcommittee on National Security, now recognized for 5 
minutes.
    Mr. L ynch. Thank you, Mr. Chairman.
    I want to thank the ranking member, Mr. Cummings, for 
allowing me to go in his place.
    Ms. Leonhart, how do you hold people accountable if you are 
not able to discipline them?
    Ms. Leonhart. The system in place, it is a three-tiered 
system. There's the inspectors who investigate----
    Mr. Lynch. You're not answering my question.
    Basically, very briefly, because I only have a couple of 
minutes, how do you hold people accountable when you cannot 
discipline them when they do, like, OK, so we have got 15 to 20 
sex parties, 15 to 20. We have got all these allegations. A lot 
of these agents admitted to prostitution, to soliciting 
prostitutes, having sex with prostitutes. We don't know their 
ages because there's been nothing disclosed here. We have them 
taking weapons. We have got foreign individuals, parts of 
terrorist groups complicit in this. We have got national 
security at risk, and you don't have the ability to discipline 
these people.
    You know, when I came to this hearing, I thought my problem 
was that we weren't disciplining these people. I think the 
problem here, now after hearing you testify, even though you've 
said you were not happy, even though you said you were very 
disappointed--this is a prostitution ring--15 to--they are 
using taxpayer money to solicit and pay for prostitutes. And 
you're very disappointed; you're not happy. I think we're at 
different levels here. And I find completely vapid the 
Statement that we are not going to let this happen again. We're 
not doing anything. We're not doing anything.
    We haven't--I think the problem now is we're protecting 
these people. That's what's happening in your agency. You're 
protecting the people who solicited prostitutes, who had 15 to 
20 sex parties, went through this whole operation, used 
taxpayer money to do it and, I believe, compromised the 
national security. And you're not happy. You know, that's not 
what I would expect from your department. I really wouldn't.
    I worked with DEA in Afghanistan, and those folks did a 
great job. And I think this is a disgrace that their 
reputation, I see--and they were in some dangerous, dangerous 
places in Afghanistan, down in Helmand Province trying to deal 
with the opium exportation there, doing heroic work. Those are 
the DEA agents that I know that worked hard and upheld the 
dignity of this country and worked with the local families down 
there, the farmers, just to try to protect them. I'm proud of 
those DEA agents. They're doing wonderful work on behalf of our 
country. And this is a blemish. You know, this is just 
disgraceful that they should be associated with this activity.
    So I actually feel your system is protecting these people. 
So there's these 15 or 20 sex parties and then--and by the way, 
it says here sexual harassment and misconduct. It should be 
sexual misconduct upfront. That's what we're talking about 
here. This is a very serious issue, and you've done nothing. 
You've done nothing.
    How about disclosure? If you can't even--if you can't 
prosecute them, if you can't bring justice to the situation, 
why are we stopping the inspector general from looking at this? 
Why do the American people do not--why do they not have the 
names of these individuals?
    Ms. Leonhart. Well, we did provide the inspector general 
with the information so that he could do his review.
    As far as protecting them, I take great offense to that 
because I feel exactly----
    Mr. Lynch. You do? You do? You take offense that someone 
who runs 15 to 20 prostitution parties, abusing women gets a 3-
day, 2-day, 1-day, you're offended by that? You're offended by 
that?
    Ms. Leonhart. I'm offended by their conduct. I'm offended 
by----
    Mr. Lynch. I don't see it, though.
    Ms. Leonhart [continuing]. The behavior. I am trying to fix 
the system. I can't fire. I'm trying to fix a system.
    Mr. Lynch. How about just naming them, name and shame? How 
about that? You get--there was some discipline here. It's 
laughable. It's laughable, but you did suspend some people here 
with pay for--1, 2, 3--10 days. One guy got 10 days, conduct 
unbecoming and poor judgment.
    It's just--you know what I think? You know and I appreciate 
the gentleman's earlier comments about we've got to give you 
power. I don't think that's the answer. I think there's a 
mentality here that needs to be extricated root and branch from 
the DEA operation. I think we have to have an independent 
agency that actually goes in that's not part of the old good 
ole boy network, that actually goes in and, with sunlight, with 
disclosure, goes after these people who--like I say, you know, 
when I think of the DEA agents and the jobs they're doing in 
Afghanistan right today, today and trying to protect the 
homeland, you know, this is a real--this is a disservice to 
those good agents.
    I'll yield back the balance of my time.
    Chairman Chaffetz. Thank the gentleman.
    I now recognize the gentleman from Texas, Mr. Farenthold, 
for 5 minutes.
    Mr. Farenthold. Thank you, Mr. Chairman.
    Mr. Horowitz, Mr. Lynch really hit on something with 
respect to the good ole boy culture. And this is my concern 
that I'm seeing more and more of the good ole boy culture as 
this committee continues its investigation. I mean, we've seen 
it with the DEA sex parties. We've seen it with some of the 
things going on in the Secret Service admittedly, you know, not 
subject to this. We see it in a lot of government agencies.
    In your investigation, do you get a sense that there is a 
good ole boy mentality? Is it as bad as I think it is?
    Mr. Horowitz. Well, it's interesting, Congressman, you use 
these words because this all--our first review was of the good 
ole boy roundup events. Back in the early nineties, we did a 
report in 1969 about the culture and the need to make it clear 
about what is permissible and what clearly isn't permissible on 
and off duty, and yet we're 20 years later and there are still 
no department-wide policies or training.
    Mr. Farenthold. Ms. Leonhart, do you run the DEA. Do you 
think it's appropriate in your off time, even in a country 
where prostitution is illegal, to engage prostitutes?
    Ms. Leonhart. Absolutely not. And it's against DEA policy.
    Mr. Farenthold. And how----
    Ms. Leonhart. It's illegal.
    Mr. Farenthold. How could any of your agents not know this? 
This strikes me as just common sense that--I mean, and we have 
a memo from Eric Holder. Admittedly, not a fan of Mr. Holder. 
But, I mean, he really--I can't believe there's even a need for 
a memo that says it's not appropriate to hire prostitutes.
    I mean, let me read from the memo--a couple of things from 
the memo: The solicitation of prostitution threatens the core 
mission of the Department, not simply because it invites 
extortion, blackmail, and leaks of sensitive or classified 
information, but because it is also undermines the department's 
effort to eradicate the scourge of human trafficking. 
Regardless of whether prostitution is legal or tolerated in the 
particular jurisdiction, soliciting prostitutes creates a 
greater demand for human trafficking victims and, as a 
consequence, an increase in the number of minor and adult 
persons trafficked into commercial sex slavery.
    And now he goes on: For this reason, I want to reiterate to 
all Department personnel, including attorneys and law 
enforcement officers, that they're prohibited from soliciting, 
procuring, or accepting commercial sex.
    To me, it seems ludicrous that we would even have to write 
a memo like this. It defies common sense.
    Mr. Perkins, what about the FBI? Is there anybody in the 
FBI thinks it's OK to go hire a prostitute?
    Mr. Perkins. No, sir. We make it very clear to our 
employees both here domestically and overseas that's not going 
to be----
    Mr. Farenthold. But the message we're getting, with no 
disciplinary action or time off with pay, tends to reinforce 
that.
    Mr. Horowitz, is there congressional action that needs to 
be taken? Do we need to change some of our laws to make it 
easier to fire people who are proved to have engaged in this?
    Mr. Horowitz. Well, that's certainly something Congress 
could look at. As been noted, the FBI has certain authorities 
that the other three components do not. I will add that one of 
the things that would help address these is that the OIG--that 
they get reported as they should to headquarters, that they get 
reported to the OIG as they should, and that we get copies of 
records that we need promptly so that we can look at them 
promptly. That would help as well, and that takes no 
congressional action because you already have the law in the IG 
Act that says that should occur, but it's not occurring.
    Mr. Farenthold. All right. So what do we do to fix that? I 
mean, somebody is going to have to be disciplined for not 
reporting. It's not just the rank-and-file men and women who 
are engaged in misconduct that need discipline. It's their 
superiors that are covering it up and obstructing. Is that not 
correct?
    Mr. Horowitz. It's certainly our view that if an employee 
fails to report to headquarters what the policy requires, which 
in all law enforcement agencies cases in the Department, that's 
the policy, that is a violation that should be looked at.
    Mr. Farenthold. Now, but we're also seeing--you want 
disclosure from the folks that you're investigating.
    We're starting to see lots of redacted stuff here in 
Congress when the IG Act only says the identity needs to be--
needs to be withheld. In fact, had we wanted more information 
withheld, we could have modified it on Section 6103 of the 
taxpayer--of the IRS code.
    I mean, you want full reporting. What's the excuse for not 
giving us more access here in Congress?
    Mister--anybody want to field that? I mean, some of it's 
the IG, Mr. Horowitz.
    Mr. Horowitz. We've certainly put forth, on our Website 
publically and sent to Congress, everything that we're allowed 
to put forth pursuant to the Privacy Act. We've--we have not 
withheld material.
    Mr. Farenthold. I think we have a differing interpretation 
of that, but I see I'm out of time.
    Chairman Chaffetz. The gentleman will yield.
    Ms. Leonhart, will you agree to allow the inspector general 
to search all 45 terms? You've limited it to three.
    Ms. Leonhart. Yes. We don't have the search capabilities 
that his systems have.
    Chairman Chaffetz. Will you allow him full and unfettered 
access to review these records?
    Ms. Leonhart. We would be glad to run that search. We had 
problems in doing a search that many names. We found a 
different way to do it by running offense codes. But I--Mr. 
Horowitz and I have a very good working relationship. And if 
there's something that he wants, he has not hesitated to pick 
up the phone and talk to me about it. And we'll work it out.
    Chairman Chaffetz. Has she allowed you all the access that 
you want?
    Mr. Horowitz. I think the problem has been that, frankly, 
I've had to call too much. I shouldn't have to make those 
calls, frankly, to the Administrator to get access. The staff--
my staff shouldn't have to spend 4 months going back and forth 
with the line DEA staff getting redacted versions, being told 
they can't get things because of privacy issues when we--that 
is not a basis for a legal objection, which the DEA and the FBI 
ultimately conceded.
    But I shouldn't have to be engaging at the highest levels 
of the FBI and the DEA to get the access that occurred--and let 
me just put in a--say something here about two agencies that 
complied fully. The ATF and the U.S. Marshals Service got us 
the material immediately. We had no delays. What it took us 
four, five--I don't even know how many months--to get from DEA 
and ATF we got in a matter of weeks from ATF and the Marshals 
Service.
    Chairman Chaffetz. Did you mean the----
    Mr. Horowitz [continuing]. Who fully cooperated with us.
    Chairman Chaffetz. I think you meant to say DEA and FBI. 
Correct?
    Mr. Horowitz. I'm sorry. FBI and DEA compared to ATF and 
the Marshals Service, who fully cooperated with us.
    Mr. Farenthold. Thank you very much. I see my time is 
expired.
    Chairman Chaffetz. Thank you.
    I now recognize the ranking member, Mr. Cummings, for 5 
minutes.
    Mr. Cummings. Thank you very much.
    Ms. Leonhart, do you think that you're the right person for 
this job? You know, I've been--I just intentionally wanted to 
hear some of the testimony. I have a lot of concerns.
    It seems like there's a culture that has developed here. 
And even the Attorney General's letter when he has to say 
``don't fraternize with prostitutes''--hello? Am I missing 
something? I mean, I think that we are at an all-time low here. 
Don't you?
    Ms. Leonhart. As a DEA agent and a female DEA agent for the 
past 35 years, I'm appalled of it over this as well. And like 
the Attorney General had to send a memo reminding people last 
Friday, I had to send one last year to remind everyone and put 
everybody on notice.
    Mr. Cummings. OK. I only have a few minutes, but I just--
I'm very concerned, Mr. Horowitz. And on page 12 of your 
report, you made the following Statement, ``We found the 
regional director and acting assistant regional director and 
the group supervisor failed to report through their chain of 
command or to DEA OPR repeated allegations of DEA special 
agents fraternizing with prostitutes and frequenting a brothel 
while in an overseas posting, treating these allegations as 
local management issues.''
    Is that correct?
    Mr. Horowitz. That's correct.
    Mr. Cummings. So despite these facts, none of these 
employees--the special agent, the group supervisor, the 
regional director, and the acting assistant regional director--
ever reported these allegations to the Office of Professional 
Responsibility or to you at the IG's office. Is that right?
    Mr. Horowitz. That's correct.
    Mr. Cummings. Now, Mr. Horowitz, when these allegations 
finally came to light in 2012, your report States--``The DEA 
Administrator counseled the regional director for failing to 
report the allegations.'' Is that right?
    Mr. Horowitz. That's correct.
    Mr. Cummings. And, Ms. Leonhart, is that correct? Did you 
personally counsel the regional director?
    Ms. Leonhart. The regional director was first counseled by 
the chief inspector. He was then counseled by the deputy 
administrator, and then I counseled him as well.
    Mr. Cummings. Now, was that the only discipline that he 
got, somebody sitting there saying, you're supposed to do your 
job?
    Ms. Leonhart. Yes. He was----
    Mr. Cummings. Please. You mean to tell me that was the 
discipline--``Do your job''? That's not discipline, is it?
    Ms. Leonhart. The regional director----
    Mr. Cummings. Come on.
    Ms. Leonhart. The regional director--the regional director 
was not aware of any allegation until it was brought to light a 
year, a year after an incident.
    Mr. Cummings. Who was the regional----
    Ms. Leonhart. So when I counseled him----
    Mr. Cummings. OK.
    Ms. Leonhart. So when I--when I talked to him and went----
    Mr. Cummings. Well, just tell us what you said very 
briefly. I only have a minute or so.
    Ms. Leonhart. I was concerned that he had warnings that 
this person was involved with prostitutes. And I talked to him 
because, if that was the case, I would have been looking at 
significant discipline. It was not the case with him. I even 
went and looked at the letters that were sent. The letters were 
sent to----
    Mr. Cummings. And so what did he say? I mean, I wish I had 
a tape recording of that conversation, but----
    Ms. Leonhart. Right.
    Mr. Cummings [continuing]. In 30 seconds, what was said by 
him?
    Ms. Leonhart. He said, when he was aware of it, he was 
notified by the Embassy, the RSO, of what had happened. He was 
told about the incident. He called the agent in. That was the 
first he knew that this agent was involved with prostitutes. He 
called the agent in, told the agent, You're out of here, you're 
going home. He sent him TDY back to the States until he could 
finalize the tour.
    Mr. Cummings. So were they suspended at all?
    Ms. Leonhart. I'm sorry?
    Mr. Cummings. I mean, you said he sent them back to the 
United States.
    Ms. Leonhart. Yes. The agent received 14 days off.
    Mr. Cummings. And this--and so did you think that was 
sufficient?
    Ms. Leonhart. The regional director took action when he 
heard about it, and he took action immediately after to put in 
place some mechanisms to make sure that those types of 
behaviors were reported promptly.
    Mr. Cummings. Who was the highest ranking DEA official 
between 2001 and 2008 who was aware of these misconduct issues?
    Ms. Leonhart. Are you talking about the Bogota incidents?
    Mr. Cummings. No. I'm talking about the--well, let me 
change that to 2005 to 2009.
    Ms. Leonhart. That they were aware of it? Probably----
    Mr. Cummings. Yes. The highest ranking person.
    Ms. Leonhart. Probably a group supervisor.
    Mr. Cummings. Did you have power to discipline on the level 
of the regional----
    Ms. Leonhart. I could discipline the regional director. 
He's an SES.
    Mr. Cummings. So you could have fired him. Is that right?
    Ms. Leonhart. I couldn't--I couldn't fire him. You have to 
show misconduct for him to be fired. But with what the law 
allows me to do with an SES, he was counseled.
    Mr. Cummings. So you do feel that he did something wrong?
    Ms. Leonhart. He failed to report it when he learned about 
it.
    Mr. Cummings. And so you--and you failed to discipline him, 
other than counseling him?
    Ms. Leonhart. The discipline available to me--appropriate 
discipline--was to reprimand him----
    Mr. Cummings. Well, who came up with the suspension, then? 
I'm confused.
    Ms. Leonhart. In SES, the discipline, there has to be 
misconduct.
    Mr. Cummings. Right.
    Ms. Leonhart. And the discipline has to be 15 days or more. 
Reporting it to an embassy and working it out locally with the 
embassy rather than reporting it to OPR would not raise to that 
level--it's the only time that's happened with him--would not 
raise to the level to be misconduct.
    Mr. Cummings. Just one more question.
    Ms. Leonhart. So I counseled him.
    Mr. Cummings. The OP--if--reporting, now if he had reported 
it, he was supposed to have reported to the Office of 
Professional Responsibility. Is that correct?
    Ms. Leonhart. That's correct.
    Mr. Cummings. And if he had reported that there was a 
possibility that the agent would lose their security clearance. 
Is that right? Is that right, Mr. Horowitz? Do you know that?
    Mr. Horowitz. They certainly could lose their security 
clearance if the process was followed through as it's supposed 
to be followed through.
    Mr. Cummings. And if they lost their security clearance, 
does that mean they, then, lose their job?
    Ms. Leonhart. Yes. Like the three Cartagena agents. If you 
lose your security clearance, then, you--you cannot be a 
special agent. You would be demoted.
    Mr. Cummings. So, in looking at it in hindsight, the 
regional director, do you feel that he received appropriate 
discipline?
    Ms. Leonhart. I believe he made a mistake by not reporting 
it in. He took action, but it wasn't the right action. And he 
has--that has not happened with him in the past, and he's done 
a number of things in Colombia since that incident to ensure 
that this does not happen again.
    Mr. Cummings. Do you think there's a culture problem here?
    Ms. Leonhart. I believe there may have been a culture 
problem.
    Mr. Cummings. May have been? May have been?
    Ms. Leonhart. May have been a culture problem.
    Mr. Cummings. When did it stop?
    Ms. Leonhart. Years back.
    Mr. Cummings. When did it stop?
    Ms. Leonhart. I----
    Mr. Cummings. When did it stop? You said ``may have been,'' 
so you're assuming that--I assume you have a date that you 
think it stopped, and I'd like--I'd love to know what it is.
    Ms. Leonhart. When you----
    Mr. Cummings. Why you say that.
    Ms. Leonhart. When you see that these parties and what was 
happening in 2000 to 2004 were by one group of agents within 
Bogota, Colombia, I would say that's a culture problem.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Chaffetz. Now recognize the gentleman from South 
Carolina, Mr. Mulvaney, for 5 minutes.
    Mr. Mulvaney. Thank you, Mr. Chairman.
    Ms. Leonhart, I'm new to the committee so I'm going to ask 
you questions that I'm just curious as to the answer because 
I'm very confused. You said some things today that, I think, 
strike me as being unusual. They may be true. And I'm certain 
if anybody back home is watching it, they don't understand it 
either.
    You said you can't fire people. Why can't you fire people? 
Everybody else could be fired. Why can't you fire people that 
work for you?
    Ms. Leonhart. Under the civil service laws, I can't 
intervene in the disciplinary process and that's why DEA's 
process is similar to some of the other agencies, is a three-
tiered process. The Administrator, the Deputy Administrator, 
management is not--cannot intervene in the disciplinary 
process, so that's a prohibited personnel practice.
    Mr. Mulvaney. Who can fire people when they commit 
misconduct, egregious misconduct, like participating in----
    Ms. Leonhart. Our deciding----
    Mr. Mulvaney [continuing]. Cartel-funded prostitution.
    Ms. Leonhart. Our deciding officials.
    Mr. Mulvaney. Who? In your agency, who is a deciding 
official?
    Ms. Leonhart. We have two deciding officials. They are 
senior DEA 1811s with prior OPR experience. They make all of 
the disciplinary decisions for the agency.
    Mr. Mulvaney. Are they senior to you or junior to you?
    Ms. Leonhart. They're junior to me.
    Mr. Mulvaney. Could you recommend that they fire somebody? 
So if somebody--you're saying you can't fire somebody, but 
somebody junior to you can fire somebody? Is that what you--is 
that what you're telling us?
    Ms. Leonhart. My position as Administrator, under the Civil 
Service Act, we have to follow certain civil service 
protections. And so our system is set up that the discipline is 
decided by these two senior people within DEA, deciding 
officials, who have----
    Mr. Mulvaney. Senior people, but not senior to you. But I 
get that. So, OK, let's say that you wanted to fire these 
people. Let's say you saw some activity that merited somebody 
getting fired. Did you ever--by the way, have you ever seen 
that since you've worked there? Has any of this conduct that 
we've talked about today in these couple dozen sex parties, in 
your mind, merit dismissal?
    Ms. Leonhart. The activity that's been explained today, I 
believe, not knowing all the facts, not knowing----
    Mr. Mulvaney. Now, how could you possible--I can't let you 
off the hook like that, Ms. Leonhart. How do you not possibly 
know all the facts by now?
    Ms. Leonhart. Not knowing the same facts that the deciding 
officials look at, which are called the Douglas factors. So 
not--not knowing that piece, only knowing what the behavior was 
and what the investigations show, I took action last year to 
put the agency on notice that activity like that--and I named 
it, prostitution, and named four or five other things--required 
significant discipline. And that put our deciding officials and 
our board of conduct on notice.
    Mr. Mulvaney. Do you have any idea how absurd all of that 
sounds to an ordinary human being?
    Ms. Leonhart. I can see someone, not knowing the civil 
service system and not understanding our system, would think 
that.
    Mr. Mulvaney. All right. Let's assume--because I think I 
just asked you if you saw anything that merited somebody being 
dismissed, and you didn't say yes, which I assume means you 
meant no. But let's assume for the sake of this discussion you 
saw something that merited dismissal, what would you do?
    Ms. Leonhart. I can't intervene in the process the way the 
law is set up.
    Mr. Mulvaney. How do you start the process?
    Ms. Leonhart. What I can do is put the agency on notice, 
like I did last year, that this will not be tolerated and that 
I, in writing, told the deciding officials and the board of 
conduct that these kinds of behaviors required significant 
discipline.
    Mr. Mulvaney. Mr. Horowitz, Mr. Perkins, is it like this at 
the other agencies? Does everybody deal with these arcane rules 
at other agencies?
    Mr. Perkins. Congressman, I can't speak for the other 
agencies. But for the FBI, we are exempt from Title V and civil 
service rules, regulations, and statutes. Director Comey can 
and has summarily fired individuals. We do have a highly 
structured disciplinary process within the Bureau that will, as 
you go through the process, it raises it up to the appropriate 
levels for the appropriate level of punishment. There are 
occasions when the conduct is so egregious that the Director 
can intercede and summarily dismiss somebody and has.
    Mr. Mulvaney. Mr. Horowitz.
    Mr. Horowitz. My understanding is that the FBI is unique in 
that regard, as Mr. Perkins outlined, and that the other three 
law enforcement components in the Department have to follow the 
Title V rules and the civil service rules.
    Mr. Mulvaney. One last question Ms. Leonhart, then I'll 
wrap up. Is it true, Ms. Leonhart, that if you suggest a 
suspension longer than 14 days--and in all the examples that 
I've got the paperwork on, on these couple dozen events--no one 
was ever suspended for more than 14 days. Is it true that if 
you recommend or if someone gets a suspension of more than 14 
days, that a Merit System Protection Board takes over the 
investigation in the handling of that matter?
    Ms. Leonhart. Not quite. If the deciding officials dole out 
discipline and it's more than 14 days suspension, the employee 
can appeal it. And when the employee appeals it, it goes to the 
Merit System Protection Board.
    Mr. Mulvaney. And who takes over the investigation of the 
matter when the Merit System Protection Board gets involved?
    Ms. Leonhart. No one takes over the investigation because 
the investigation has already been done. This is at the very 
end of the disciplinary process. So the DEA deciding official 
can say 30 days.
    Mr. Mulvaney. But is that internal to you, or is it 
external to you?
    Ms. Leonhart. The deciding officials is internal. The MSPB 
is external.
    Mr. Mulvaney. I thank the gentleman.
    I thank the chairman. I asked both the chairman and the 
ranking member to--this is just--this is nuts. How we can't fix 
this, I have no idea, but clearly she is telling us she doesn't 
have the legal authority to do what everybody on this committee 
thinks that she should have done. Maybe we should try and 
figure out a way to fix that.
    Chairman Chaffetz. Now recognize the gentleman from 
California, Mr. DeSaulnier, for 5 minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman. I will say as a 
new Member of this body, I keep thinking I've gone through the 
looking glass and I won't do it again. And then you come to a 
hearing like this, and this just seems, on the surface, it's 
hard to believe. It does bring a number of questions, including 
sort of the collateral consequences to direct dealers on the 
street and the larger problems we have to face in this country 
when people see this kind of--this different type of 
administration of justice.
    So, Mr. Horowitz, first question is: What was different, do 
you think, between ATF and the U.S. Marshals that you were--
your underlings, your mid-management people were able to access 
the information you asked for so quickly as opposed to the DEA 
and the FBI?
    Mr. Horowitz. They've been fully cooperative throughout our 
reviews, have not raised legal objections, and have read the IG 
Act and complied with what we've asked for.
    Mr. DeSaulnier. Is it a cultural thing? Is it an 
enforcement thing?
    Mr. Horowitz. Well----
    Mr. DeSaulnier. Do you need more enforceability?
    Mr. Horowitz. Well, certainly there--we don't have any 
enforceability at this point, other than my testifying 
publically and raising it to the----
    Mr. DeSaulnier. It doesn't seem to be sufficient in this 
instance.
    Mr. Horowitz [continuing]. Folks. It ultimately turns out 
to be, in some instances, but it's a problem and it's a 
repeated problem.
    Mr. DeSaulnier. Ms. Leonhart, so the individuals involved 
in the sex parties, the Rolex, the accepting sophisticated 
weapons, are they still employed?
    Ms. Leonhart. The majority are still on the job, yes.
    Mr. DeSaulnier. And it's hard to believe--it just seems 
completely counterintuitive that they could go back to work 
with as little as 10 days suspensions and be model agents. Have 
you had to spend extra time overseeing their job performance?
    Ms. Leonhart. Their supervisors, their special agents in 
charge or their--their high-level bosses are aware of the 
conduct. And with the exception of one, we have not seen any 
misconduct since.
    Mr. DeSaulnier. Do they have heightened supervision because 
their past conduct?
    Ms. Leonhart. The reason that the supervisors are made 
aware of what the conduct is so that they can put them in 
positions where they can have good supervision.
    Mr. DeSaulnier. So go back to the questions asked Mr. 
Horowitz. Why is it that it took so long to get this 
information? Why was it--why did it take so long for the IG to 
get the information from your underlings? Being aware that 
you--didn't you feel at some point that you were spending too 
much time on this? Didn't you admonish people underneath your 
command that they should be more forthcoming to the IG?
    Ms. Leonhart. Well, I knew early on that there was 
disagreement or misunderstanding in a couple of areas. What the 
scope of the audit was, that delayed it. What type of records 
they were looking for, that delayed it. I wish I would have 
known about all of those delays and I could have done something 
more about it. But at the end of the day, the reports did get 
to Mr. Horowitz. And with audits since, he and I, we kind of 
have an agreement that if someone is going to deny something to 
the IG, that it has to be raised up to my level right away so 
that he and I can discuss it.
    Mr. DeSaulnier. Wouldn't--sitting here, it seems like it's 
a question of management. That you have to spend this amount of 
resources in something that's such an egregious case, it just 
seems a misappropriation of taxpayer funds.
    So, Mr. Horowitz, if the DEA had at that time the same 
exemption that the FBI has, would that have been a more 
efficient response by Congress in terms of making sure that the 
management tools were there?
    Mr. Horowitz. Well, certainly on the personnel side, on the 
discipline side, that would be something that could occur. 
Frankly, on the access issues and getting the records promptly, 
there is no reason why DEA and FBI shouldn't have done the same 
thing the Marshals Service and ATF did. They didn't question 
the scope of our audit. They didn't raise concerns about 
whether we could see names or see the facts or run the search 
terms. They just did it.
    Mr. DeSaulnier. So that seems, Ms. Leonhart, you're 
complicit in the management problems. That it's just not 
culture problem. And with all due respect to your years of 
service, we heard this, I believe, from the IG when it came to 
Secret Service, sometimes you need somebody from the outside. 
So how do I defend your performance?
    Ms. Leonhart. I think being a DEA agent and being within 
the agency, I can intervene in ways----
    Mr. DeSaulnier. All evidence to the contrary, with all due 
respect, in this case.
    Ms. Leonhart. On this audit, I think there was 
misunderstandings, misunderstandings of what the scope was as 
well as misunderstanding on this Bogota case--or on this Bogota 
case----
    Mr. DeSaulnier. Ms. Leonhart----
    Ms. Leonhart [continuing]. Was not a closed case.
    Mr. DeSaulnier. Excuse me. My time has expired. But for me 
to go back and talk to somebody in a poor section of my 
district or any of these members who have people who are 
selling drugs who say, ``How can you admonish us and want to 
make laws tougher for us when you let the DEA manage their own 
department this way,'' is quite--is counterintuitive, with all 
due respect.
    I yield back what time I have.
    Chairman Chaffetz. Thank the gentleman.
    Will now recognize the gentleman from South Carolina, Mr. 
Gowdy, for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Administrator Leonhart, if an agent Stateside were 
soliciting a prostitute that was provided by a drug conspiracy 
he was investigating, what would--punishment would you 
recommend?
    Ms. Leonhart. I can't recommend a punishment. I would just 
hope that would be thoroughly investigated and----
    Mr. Gowdy. So you're telling me nobody cares what the 
administrator of the DEA thinks should happen to an agent?
    Ms. Leonhart. I believe----
    Mr. Gowdy. You're powerless to express your opinion? You 
have no First Amendment right when it comes to who works for 
your agency?
    Ms. Leonhart. I have expressed my opinion in a number of 
ways.
    Mr. Gowdy. What was your opinion? What did you express? 
What did you think the proper sanction was?
    Ms. Leonhart. Last year--last year I sent an email and I 
sent a memo to every employee in DEA and put them on notice 
that this kind of conduct was not----
    Mr. Gowdy. My question must have been ambiguous because I 
wasn't talking about future conduct. I was talking about past 
conduct.
    What punishment did you recommend for conduct that happened 
in the past?
    Ms. Leonhart. Under the civil service law, I cannot 
recommend a penalty. I can't intervene in the disciplinary 
process. I can't even make a recommendation to the deciding 
official.
    Mr. Gowdy. What does it take to get--what would it--
hypothetically, what would it take to get fired as a DEA agent? 
Because the agents I used to work with were worried about using 
their car to go pick up dry cleaning. They were actually 
worried about using their OGF, OGV to pick up dry cleaning. 
They were worried about being disciplined. Apparently, that 
world has changed.
    Do you know whether any of the prostitutes were underage?
    Ms. Leonhart. I don't know that.
    Mr. Gowdy. Would that impact whatever recommendation you 
might have in terms of a sanction?
    Ms. Leonhart. I don't recommend the sanction. I can't fire. 
I can't recommend a penalty. There's a guide that the deciding 
officials abide by, and they have a penalty guide that they 
look at, and the penalty guide for this kind of activity is 
anything from reprimand to removal.
    Mr. Gowdy. How about security clearance, do you have any 
impact over that, whether or not an agent has a security 
clearance?
    Ms. Leonhart. No. There's adjudicative guidelines and that 
has to be adjudicated----
    Mr. Gowdy. Well, I----
    Ms. Leonhart [continuing]. By the security people.
    Mr. Gowdy. Honestly, what power do you have? You have to 
work with agents over whom you can't discipline and have no 
control and you have no control over the security clearance, 
what the hell do you get to do?
    Ms. Leonhart. What I can do is build on and improve 
mechanisms to make sure that the outcome is what we believe the 
outcome should be. And that is what happened in Cartagena. That 
is what's going to happen moving forward.
    Mr. Gowdy. Inspector General Horowitz, I find that 
stunning. Let me ask you this: Did the agents know that the 
cartels were providing the prostitutes?
    Mr. Horowitz. What we found, Congressman, from looking in 
the file was that they should have known, given they're trained 
law enforcement agents and they were dealing with corrupt law 
enforcement--local law enforcement that was providing them with 
the prostitutes as well as the various gifts.
    Mr. Gowdy. Were they supposed to be investigating these 
cartels?
    Mr. Horowitz. They were.
    Mr. Gowdy. So they are receiving prostitutes from cartels 
that they are supposed to be investigating and she can't fire 
those agents? Do you agree with her, she can't fire them?
    Mr. Horowitz. I think, as a matter of Title V, she can't 
directly intervene and fire them. I do think one of the 
concerns we outlined in the report as to DEA and the other 
three agencies is how they adjudicate these cases. They 
undercharge them in some instances. And so, at DEA, for 
example, sexual harassment if you're charged with that, there's 
only one punishment, removal. But if you're charged with 
conduct unbecoming or poor judgment, which isn't even actually 
a category, then you've got a range of penalties. And so one of 
the issues, you know as a former prosecutor, is how you charge 
the case, and that has a consequence.
    Mr. Gowdy. Well, Mr. Chairman, I don't know what would need 
to be done. But I, like my friend from South Carolina, find it 
stunning that you can solicit prostitutes--Administrator 
Leonhart, do we know whether any of the prostitutes were 
underage? Do we know whether any of them were part of any human 
trafficking rings?
    Ms. Leonhart. Because the Bogota case happened a decade 
ago, there were no interviews of prostitutes. On the more 
recent one, the Cartagena one, it did not identify an age for 
the prostitute involved.
    Mr. Gowdy. Mr. Chairman, I would just find it impossible to 
explain to any reasonable-minded person how an agent cannot be 
disciplined for soliciting prostitutes from drug cartels that 
they were ostensibly investigating. I find that stunning.
    Chairman Chaffetz. If the gentleman will yield?
    If somebody murdered somebody, could you fire them?
    Ms. Leonhart. If someone murdered someone, there would be 
criminal charges, and that's how they'd be fired.
    Chairman Chaffetz. But if they were--could you take aware 
their security clearance?
    Ms. Leonhart. The Office of Security Programs can review 
security clearances and take their clearances, just as they did 
with the three agents in the Cartagena incident.
    Chairman Chaffetz. Gentleman from South Carolina.
    Mr. Mulvaney. Gentleman yield for just a second.
    I'm sorry, I heard you say that there's one thing you could 
actually fire somebody for, which is sexual harassment. So let 
me see if I've got this correct, Mr. Horowitz, Ms. Leonhart. If 
I flirt with a coworker in the office and that constitutes 
sexual harassment, I can be fired, but I can take an underage 
hooker from a cartel I'm investigating and you can't fire me. 
Is that what we're talking about here?
    Mr. Horowitz. Actually, Congressman, if you charge the 
offense, removal is a possibility. If you charge something 
less, conduct unbecoming or poor judgment--you don't charge 
what actually occurred--that's when the ability to discipline 
is limited. And that's the concern we found, as you know, in 
our report.
    Mr. Mulvaney. Thank you.
    Chairman Chaffetz. Thank the gentleman both from South 
Carolina.
    I will now recognize the gentleman from California, Mr. 
Lieu, for 5 minutes.
    Mr. Lieu. Thank you. I'd like to talk to you folks a little 
bit about the possible security risks from the sex parties. And 
on page 15 of the LPO report, it says the following: It says, 
Mr. Corroborator 2 Stated he believed that Mr. Corroborator 1 
gained information from the U.S. agents by getting their guard 
down through the use of prostitutes and paying for parties. Mr. 
Corroborator 1 bragged about the parties with prostitutes and 
how he sowed relationship closeness with agents. Two, Mr. 
Corroborator 2. And then Mr. Corroborator 1 said that he could 
easily get the agents to talk.
    So, Ms. Leonhart, do you believe actual information was 
compromised through these sex parties?
    Ms. Leonhart. There's no evidence that actual--that any was 
compromised. But the concern is that participating in this kind 
of behavior, bringing four nationals, bringing prostitutes to 
your GLQ, bringing them around other agents, all of those are 
security risks.
    Mr. Lieu. Doesn't the report itself provide evidence that 
you had agents in compromised positions that, at least, foreign 
officials believed that the agents were compromised and they 
could get the agents to talk? Did you do an investigate--how do 
you know that agents didn't say something that they maybe 
should not have said or disclosed some information they should 
not have?
    Ms. Leonhart. Reading the report, one of the concerns was 
that the agents got very close to these two corrupt Colombian 
national police and that the Colombian national police were 
providing prostitutes and gifts to get in the good graces of 
the agent. And that's about the furthest that it goes.
    Mr. Lieu. Did you then do an investigation as to what 
information may or may not have been leaked?
    Ms. Leonhart. The OPR investigation, because it was 10 
years after the fact, did not identify any instances. And, in 
fact, the agents were all out of country by the time it was 
investigated. But that is a major concern.
    Mr. Lieu. So it's possible the information was leaked or 
compromised?
    Ms. Leonhart. Absolutely. That's a major concern.
    Mr. Lieu. So let me focus again on this discipline issue. 
When I served Active Duty in the Air Force and still in the 
Reserves as a JAG, I dealt with the Douglas Factors. And I 
understand some of the restrictions that you have because we're 
a civil service system.
    The FBI is not under Title V. DEA agents, like FBI agents, 
go undercover. They're law enforcement. Any reason not to move 
the DEA out of Title V?
    Ms. Leonhart. We would entertain any look at that, any 
exemption that could be given so that an administrator or 
director can take action and make sure that only the people 
with outstanding reputations and ethics are employed by the 
agency.
    Mr. Lieu. If the deciding officials make a decision you 
don't like, can you do anything with that decision?
    Ms. Leonhart. I can't do anything with the decision, but I 
can do what I did last year. And that is put on notice for the 
entire work force, not any one particular case, put on notice 
for the entire work force that this behavior is unacceptable 
and that I ordered the deciding officials and the board of 
conduct to consider significant discipline to include up to 
removal for behavior in these areas moving forward.
    Mr. Lieu. Now, even though there are civil service 
protections for sort of the rank and file, when something goes 
badly wrong and it's a climate issue, a cultural issue, what 
happens is leadership resigns or it gets fired. So, for 
example, in the Air Force, when there was problems with some of 
the nuclear weapons we had, even though the Secretary of Air 
Force at the time, the chief of staff of the Air Force that 
really didn't know about it, wasn't aware, but because those 
things happened, they were both removed. Secret Service, their 
head is gone.
    Do you believe it's a climate issue? And if it's a climate 
issue, do you believe then maybe, instead of focusing on the 
rank and file, maybe you need leadership change or removed?
    Ms. Leonhart. We have changed leadership. We have a 
different set of leaders within DEA now than we did a decade 
ago. And I believe that, moving forward with our--a better 
system to deal with discipline and moving forward with--instead 
of looking at what the discipline was in the past that was 
doled out to individuals who took part in this kind of 
behavior, the deciding officials and the board of conduct has 
the clear ability now to--it's a reset and they can--they can 
look at the activity, and they can say this is--the 
Administrator said this is--deserves significant discipline, 
and they can take that kind of action.
    Mr. Lieu. Thank you.
    I yield back.
    Chairman Chaffetz. Thank the gentleman.
    Now recognize the gentleman from North Carolina, Mr. 
Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    Ms. Leonhart, you have said earlier today that you do not--
this dispute, the report, I believe, is your exact words. Yet a 
couple of times you've mentioned this was an isolated incident.
    From what we've heard today, this has been sort of a spring 
break, frat party mentality for the last 15 years. Now, the 
adjudicative guidelines for determining eligibility for access 
to classified information, these are the considerations for 
whether or not someone is given a security clearance. Is that 
correct?
    Ms. Leonhart. That's correct.
    Mr. Walker. OK. Part of the guidelines covers conduct that 
reflects lack of judgment or a person's ability to protect 
classified information. Is that correct?
    Ms. Leonhart. That's correct.
    Mr. Walker. Are you aware of anyone who's ever been fired 
for breaching that?
    Ms. Leonhart. Cartagena, the three agents. And we've had 
other agents throughout DEA's history that have been fired.
    Mr. Walker. Did you ever have a role in someone losing 
their job because of the security breaches?
    Ms. Leonhart. Cartagena.
    Mr. Walker. OK. Soliciting prostitutes, does that expose an 
agent to blackmail? Weren't some of those agents married?
    Ms. Leonhart. I believe so.
    Mr. Walker. You know what really even is a--to me is a more 
potent question, 2 weeks ago we had the largest human 
trafficking event in North Carolina, brought members from 40 
agencies across the State. Talked about the human trafficking 
specifically the drug cartels are involved with: 83 percent of 
those girls are from 12 to 14.
    So my question is this: Having gratuitous sex with an 
underage prostitute, first of all, how egregious it is to even 
use that despicable language, but second of all, at what point 
does it become a security breach? You've mentioned the world 
``appalled'' several times. Are you appalled with that?
    Ms. Leonhart. Absolutely.
    Mr. Walker. Well, how appalled do you have to be before you 
jump up and down and scream and holler and say, This cannot be 
tolerated?
    Ms. Leonhart. The first incident that I had any dealings 
with in this manner or about this behavior was Cartagena, and I 
made sure that the disciplinary system, that there was 
coordination between the people that do the investigations and 
the people that do the security clearances because I, like you, 
feel it is outrageous behavior. But there are security 
concerns. They have put themselves in danger. They have put 
other agents in danger. They have not protected----
    Mr. Walker. Sure they have. But, listen, there's no statute 
of limitations in our countries for having sex with a 13-or 14-
year old. Why are we just--why are you just telling me that, 
well, that was long ago, but picking up at this point on, we're 
trying to--I don't understand that. Can you help me understand 
it?
    Ms. Leonhart. Well, I will say that the security 
clearances, if all the people involved in the Bogota incident, 
the person--the one person involved in 2009, those security 
clearances are currently under review by the Department of 
Justice.
    Mr. Walker. Do you have any concrete proof of the age of 
these prostitutes that these men were involved with? Have you 
done any research on that at all? Is there any record that 
you've read?
    Ms. Leonhart. I have read the reports, and there's nothing 
to indicate a name or an age.
    Mr. Walker. So maybe nobody ever even asked that question.
    Let me ask you something else. Last Friday, April 10--the 
chairman referred to this a little bit earlier--3 days before 
this hearing, the Attorney General had to send out a memo 
reminding law enforcement agents that they are not to solicit 
prostitutes. Are you familiar with that memo?
    Ms. Leonhart. Yes, I am.
    Mr. Walker. The problem with it. Or else what? What 
happens? Just a reminder. I mean, first of all, the fact that 
we have to remind these agents to be on your best behavior is 
ludicrous. But the fact is, then what?
    Evidently, in the past, Hey, you may take a couple of days 
off or even unpaid for 2 weeks at the most. Where is the ``or 
else'' in this? Would you answer that question, what happens? I 
mean what's--what's--the Attorney General sent it out and said, 
Listen, hey, guys, you know leave the prostitutes alone. Well, 
what else? Or what's the penalty? What's the concrete solution 
that has been clearly communicated? Can you explain that or 
talk about that?
    Ms. Leonhart. Well, working within our system, in the same 
way the Attorney General put the entire Department of Justice 
on notice, I a year ago--last year--put the entire DEA work 
force on notice that this type of behavior was not to be 
tolerated and that there would be significant discipline.
    Mr. Walker. Well, you know, I have three children, and I 
tell them--talk about sometimes not to do that. But unless the 
consequences are very clearly communicated, I don't have a shot 
that they'll change their behavior.
    Last question, and I'll yield back. If you had a chance 
going back, would you be so appalled that you would do some 
things different in handling these matters?
    Ms. Leonhart. Without a doubt.
    Mr. Walker. Thank you.
    Yield back.
    Chairman Meadows [presiding]. I thank the gentleman.
    The Chair recognizes the gentlewoman from the District of 
Columbia, Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I don't know how to describe what we've seen here: Boys 
going wild; out of sight, out of mind. But what we do know and 
what most concerns me is how these prostitutes were funded. We 
are--it looks like we have implicated taxpayer funds, that some 
may have come out of official funds and some out of cartel 
funds. It's hard for me to know which is worse.
    But it does seem pretty clear that we may be dealing, to be 
sure, with a cultural problem but with a cultural problem that 
has--is so deep that it is now a problem of corruption. And I 
say that because I'm looking at some of the excerpts from the 
reports where apparently there were corroborating witnesses. 
And some of this is so eye-popping, I'm going to have to ask 
you what is your response. You know, I'm not going to ask you 
about why you don't fire people because I do understand that 
when the State--that's the United States or any of its agents--
is an actor, then, due process, of course, requires you to go 
through certain processes; after all, those processes have been 
put there by the Congress of the United States.
    So I'm going to ask you whether--about some things that 
perhaps you could do. This corroborating witness Stated, he 
recalled that the ASAC, that's the Assistant Special Agent in 
Charge, I believe, that his farewell party where part of the--
that was in 2003 and 2004--where part of the money requested 
from an operational budget--those are the operative terms, 
``operational budget''--was used for his party. He Stated that 
the--his party was organized by the assistant special agent in 
charge and that he paid 500,000 pesos--that's approximately 
$261--for each prostitute with funds from an operational 
budget. Now, I want to try to identify what that means.
    What is the purpose, Ms. Leonhart, of an operational 
budget? Is it taxpayer funds?
    Ms. Leonhart. What I believe that refers to is money is 
given to the Colombian national police to pay for their 
operations that they're doing in collaboration with us.
    Ms. Norton. So it's given--taxpayer funds are given to 
them. So what we're talking about funds that were paid, not 
by--in this case, out of the operational budget, it looks like, 
by agents. Who is responsible for accounting for these funds in 
the regional office?
    Ms. Leonhart. The regional director would be responsible 
for that.
    Ms. Norton. Now, if that's the case--since, of course, you 
have indicated--and I understand why you can't precipitously 
fire someone as if this were the private sector when the State 
is an agent--would that fund continue to be under the same 
supervision if you had--having this kind of information as it 
was before?
    Ms. Leonhart. The Bogota incident you're talking about 
was----
    Ms. Norton. I am.
    Ms. Leonhart [continuing]. Was three regional directors 
ago. And the way that DEA operates with the Colombian national 
police in these special units has completely changed since----
    Ms. Norton. Well, I didn't ask you that.
    Ms. Leonhart. --2000, 2003----
    Ms. Norton. I'm asking how the operational--and now how is 
the operational budget dealt with? In other words, now it is 
not in control of the agents themselves to pass out this money 
to Bogota or anybody else? Is it controlled from your office?
    Ms. Leonhart. No. The funds by the DEA Bogota office that 
go to the Colombian national police for operations now are 
audited. They require receipts. The 2000 to 2003 timeframe was 
at the beginning stages of these units.
    Ms. Norton. Well, according to this cooperating witness, 
the--again, the word ``operational''--operational budgets were 
presented to the DEA, and there was additional information 
here--and I want to quote--for additional funds--apparently not 
enough funds were in the operational budget--for additional 
funds which were used for prostitution and parties for agents.
    Are you aware of that allegation that they didn't have 
enough so they went back and got some more funds?
    Ms. Leonhart. I'm aware that the corrupt national police 
officers who ended up being indicted by DEA and convicted, that 
what they were talking about is padding their operational 
requests that went to----
    Ms. Norton. Yes.
    Ms. Leonhart [continuing]. DEA to get additional money.
    Ms. Norton. In other words, fraudulent budgets?
    Ms. Leonhart. Yes. On behalf of the Colombian national 
police.
    Ms. Norton. You can't wipe--you can't wash the hands of the 
office. Look, this is a corroborating witness here who Stated 
that the operational budgets were presented to the DEA to cover 
operational expenses. So it doesn't seem to me you can wash 
your hands of that as the DEA or that they could have washed 
their hands of that.
    Has someone looked back at how these funds were expended 
during this period so that you could now lay out exactly what 
happened during this period? Part of the problem here and the 
frustration, I think, of the committee is that it's taken so 
long because you had no policy to go up the chain of command. 
And so you can tell me, well, this was 2003 and 2004. But I 
will tell you, if I was there, I'd want to know exactly what 
happened then so I'd make sure it wasn't happening now.
    Ms. Leonhart. One part of the investigation was to go 
through and audit and do just that.
    Ms. Norton. From that period? From that period?
    Ms. Leonhart. Yes. To look at the books from that period of 
time.
    Ms. Norton. Because we understand, again, from one of these 
cooperating witnesses, he could obtain--and this is a quote, 
``Prostitutes for agents from the DEA Bogota office.'' This is 
what the cooperating witness said: He could--he would pay the 
girls to come to the parties and then the agents would pay the 
girls directly for any sex they wanted. He recalled getting 
prostitutes for these 15 to 20 parties.
    Weren't the DEA agents in Colombia there to crack down on 
the agents who were--on the cartels who were given funds to pay 
for these parties?
    Chairman Chaffetz. The gentlewoman's time is expired, but 
the gentlewoman may answer.
    Ms. Leonhart. That's what's so appalling about this, that 
although the agents didn't know, the corrupt police were 
getting money from the traffickers. They were on their payroll 
and using that money for the prostitutes.
    Chairman Chaffetz. Thank you. Thank the gentlewoman.
    I will now recognize the gentleman from Georgia, Mr. Hines, 
for 5 minutes.
    Mr. Hines. Thank you, Mr. Chairman.
    Mr. Horowitz, in your office report you noted that during 
the interviews some in your office staff were evidently told 
that some DEA employees were under the impression, at least, 
that they were not to discuss information regarding open cases.
    Do you know who provided that information?
    Mr. Horowitz. We don't know who told them that information, 
but that is, in fact, what we were told.
    Mr. Hice. All right. So did you ever determine whether or 
not the DEA staff, in fact, someone communicated that 
information?
    Mr. Horowitz. We didn't determine definitively whether it 
occurred. We believe it did occur given we were told that by 
several individuals.
    Mr. Hice. All right. So you were told by several 
individuals that was not an isolated incident. All right. So 
you did not investigate further.
    Mr. Horowitz. We did not.
    Mr. Hice. OK. Ms. Leonhart, did your office ever give 
information, instructions to that effect?
    Ms. Leonhart. No. My office didn't and when the report--I 
saw the draft asking the Office of Professional Responsibility 
and Inspections about that, they said that there was a 
miscommunication. They were--they were under the belief that 
closed cases were not a part of what Mr. Horowitz' audit would 
cover.
    Mr. Hice. All right. Well, there was obvious confusion. Did 
you yourself at any time ever give instructions to anyone to 
withhold information?
    Ms. Leonhart. Absolutely not.
    Mr. Hice. Did anyone in your staff?
    Ms. Leonhart. No. No one in----
    Mr. Hice. How do you know?
    Ms. Leonhart. Because we weren't involved in that--in that 
part of the process.
    Mr. Hice. Well, then you can't definitively say that no one 
did it. If you weren't involved in the process, I mean, 
obviously, there were reports. There was testimony given to Mr. 
Horowitz' team that your employees were instructed not to give 
information.
    Ms. Leonhart. The inspectors that were interviewed received 
instructions from OPR and the Office of Inspections. There's--I 
have no information about what information was relayed to them 
other than it was relayed----
    Mr. Hice. All right. So you don't know is the bottom line. 
You don't know if that information was relayed or not.
    Let me--Ms. Leonhart, you were all over the board today. 
You say you can't fire anyone and that you didn't have all the 
facts, and yet you send information that this behavior is not 
going to be tolerated. It's absolutely all over the board. You 
have junior officers who evidently can fire, but you cannot 
fire. Do you have any authority over them? Can you fire those 
junior officers?
    Ms. Leonhart. If they are not doing their job, they can be 
replaced, and that is done by the----
    Mr. Hice. Did they do their jobs by not disciplining 
appropriately in this situation?
    Ms. Leonhart. I'm disappointed in the discipline. I think 
that it's not enough.
    Mr. Hice. So why were those junior officers not replaced?
    Ms. Leonhart. Again, I can't interfere with the 
disciplinary process, but I can make sure through our career 
board that replacements or people that are coming up to take 
those positions are--are of utmost----
    Mr. Hice. So do you or do you not have any authority over 
the junior officers?
    Ms. Leonhart. I don't have the authority to intervene in 
the disciplinary process.
    Mr. Hice. All right. A moment ago you said you would act 
differently if you had this to do all over again. Why in the 
world would you say that? It seems that you've made it clear 
today that you--your hands are tied, that you can do nothing. 
I'm really having a difficult time understanding. It appears to 
me that no one listens to you, quite frankly. You write a 
letter saying this behavior's not going to be tolerated, and 
yet you have no influence as to whether that behavior's going 
to be tolerated or not.
    Did anyone listen to you when you wrote what letter?
    Ms. Leonhart. Yes. The entire work force listened to me, 
and, in fact, like me----
    Mr. Hice. Why would they listen to you if you have you no 
influence whatsoever on the disciplinary process? Ms. Leonhart, 
I've just got to tell you, you say you are in charge of 
discipline on one hand; then you come back and you say you have 
nothing to do with discipline. You're in charge of the entire 
agency; then you come back and say you have nothing to do with 
correcting problems. It--quite honestly, I have serious 
questions as to your competence, quite frankly, and it appears 
to me that we need to seriously consider new leadership at the 
DEA.
    And I yield back the balance of my time.
    Chairman Chaffetz. Before the gentleman yields back, I'd 
like to give Mr. Horowitz an opportunity to respond to the 
questions that Mr. Hice was asking earlier, if you could 
address that directly, Mr. Horowitz.
    Mr. Horowitz. Certainly. With regard to the production of 
information and answering questions, again, the frustration we 
had with both the FBI and DEA during this process was we kept 
having to go back and ask for more once we learned what we 
weren't told originally. That was the case with regard to 
documents. We got redacted information. We had to--I had to 
elevate it in both instances months after this all started.
    With regard to the interviews, we learned later in the 
process that certain individuals at DEA that we had interviewed 
hadn't told us about an open case because of their 
understanding that they shouldn't talk about an open case. We 
found out that when we did get productions from both the FBI 
and the DEA that they didn't give us everything. We only 
learned that because we went back and checked our own records 
to compare and see if we had everything that--whether they 
provided us with everything that we already had. We thought 
they had even more than we had, which is why we went to them in 
the first instance for the information, but then we found out 
that the production was incomplete. We then had to go back and 
ask for a further review, and then after we did the draft 
report, we found out that the DEA hadn't run all the search 
terms we had done without telling us that they had made that 
decision on their own.
    So we had multiple instances where that occurred. It 
delayed our report. I can assure you it frustrated the good, 
hard-working folks in my office who spent months just trying to 
get information. And I will go back to what I said earlier: The 
ATF and the U.S. Marshal Service, we asked the same--made the 
same requests of them. We got the material. And we got it fast, 
and we never thought we didn't get from them what we were 
entitled to. That should have happened across the board, and it 
should be happening across the board in all instances.
    Chairman Chaffetz. Appreciate it.
    We'll now recognize the gentleman from Virginia, Mr. 
Connolly, for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    Mr. Horowitz, the IG report we're discussing today would 
seem to suggest the DEA's tolerance level for prostitution 
depends on the local culture in which the--what we'd call 
offense occurs. For example, your report says the DEA inspector 
told us that prostitution is considered a part of the local 
culture and is tolerated in certain areas called tolerance 
zones. Is that correct?
    Mr. Horowitz. That's correct.
    Mr. Connolly. Ms. Leonhart, does the DEA recognize that 
prostitution is embedded in certain local cultures and by 
implication, therefore, tolerable, and that you recognize--the 
agency recognizes tolerance zones for prostitution?
    Ms. Leonhart. No. What I believe the inspector was talking 
about was, in Colombia, there's certain tolerance zones for 
prostitution. It doesn't matter with the DEA; the partaking in 
that kind of behavior is against all DEA policies. It's not--
doesn't matter if it's legal in a particular country. It 
doesn't matter if it's legal in a particular area of a city. It 
doesn't matter. They're not to take part in that type of 
behavior.
    Mr. Connolly. So it's always wrong in terms of your policy 
no matter where, no matter when, no matter what the 
circumstances.
    Ms. Leonhart. That's correct.
    Mr. Connolly. And that's an explicit policy?
    Ms. Leonhart. It's--it's--you find it in our personnel 
manual. You find it----
    Mr. Connolly. There's a chapter called ``Thou Shalt Not''?
    Ms. Leonhart. Basically. It's very clear.
    Mr. Connolly. OK. Mr. Horowitz, did you confirm that?
    Mr. Horowitz. Well, certainly that wasn't the case back 
in--during the course of the years that we reviewed this. 
That's the problems that we identified here.
    Mr. Connolly. It was not no case.
    Mr. Horowitz. That was not--certainly not the culture and 
certainly not the understanding based on the interviews we 
conducted.
    Mr. Connolly. I'm going to get to that, but did you find an 
explicit policy in their personnel manual, human resource 
policy that explicitly barred such illicit activity.
    Mr. Horowitz. It did not at that time. It does now in light 
of both the Administrator's memo and the Attorney General's 
memo.
    Mr. Connolly. So, Ms. Leonhart, when you said to me just 
now that's a violation of our existing policy, you meant the 
new existing policy. Is that correct?
    Ms. Leonhart. The new existing policy, but it existed in 
our personnel manual in a couple of different sections. One 
about you cannot have a relationship with someone involved in 
illegal activity. You can't do anything that----
    Mr. Connolly. Well, wait a minute. Wait, wait, wait, wait, 
wait. You just said to me that the tolerance zones referred to 
Colombia, not to DEA designating tolerance zones, in which 
prostitution, in fact, was legal. You just cited something that 
refers to illegal, but if you go to Colombia, it is not illegal 
in certain parts of the country, and does--did your policy, 
therefore, in a sense open the door for what we would consider 
in most of the United States illegal activity that was not 
prohibited in the host country?
    Ms. Leonhart. What we found with the Cartagena case was our 
policies didn't specifically say you cannot partake in 
prostitution, but we had different sections in our personnel 
manual, different sections in our standards of conduct that 
every agent in the agency signs once a year and acknowledges, 
things such as DEA personnel are prohibited from engaging in 
any criminal, infamous, dishonest, or notoriously disgraceful 
conduct, or other conduct prejudicial to DEA, to DOJ, or the 
Government of the United States.
    Mr. Connolly. Well, apparently, some of your agents, when 
they went to Cartagena thought prostitution was not included in 
that litany.
    Ms. Leonhart. No DEA agent thought that prostitution was 
OK.
    Mr. Connolly. Well, I don't think that's what the inspector 
general found.
    Let me read to you further from the report: According to 
the inspector, it is common for prostitutes to be present at 
business meetings involving cartel members and foreign 
officers. The DEA inspector also Stated that the acceptability 
of this type of behavior affects the way in which Federal law 
enforcement employees conduct themselves in a particular 
country.
    So what you just read to us not withstanding, the practice 
seems to be very much contingent upon local acceptable 
practices and were influenced by that, your policy not 
withstanding. Would that be fair to say?
    Ms. Leonhart. I would say every DEA agent knows, to include 
going back to 2000 to 2004, in that period of time, knows that 
that--partaking in that kind of activity is against DEA policy.
    When Cartagena happened and we reviewed all our policies 
just to make sure, we decided to strengthen them and to put 
wording in about prostitution specifically just so that--just 
to put everybody on notice and make sure it was clear. Our 
policies were not as clear. They did not specifically say 
``prostitution,'' but there are three or four different places 
in our standards of conduct where you could point to that and 
say that's a violation of standards of conduct.
    Mr. Connolly. Would the chairman allow me one more 
question? I just have one more question if the chair would 
indulge.
    Chairman Chaffetz. Yes.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Perkins, the report talks about FBI providing employees 
with extensive predeployment training regarding conduct abroad 
and has done the most to prepare its employees to make day-to-
day decisions, unlike, apparently, DEA or even the Secret 
Service.
    Can you comment on that? I mean, does your training 
program, in terms of deployment overseas, explicitly deal with 
issues like prostitution and the sense of dishonor it brings on 
the United States if its employees engage in that kind of 
activity?
    Mr. Perkins. Yes, Congressman, it actually covers a 
universe of issues from the personal security of the 
individuals going overseas to the standards of conduct that we 
would expect them to exhibit while they're overseas. A good bit 
of this began actually under former director Louis Freeh as we 
began to expand our overseas presence. With the wars in Iraq 
and Afghanistan, we had a significant presence overseas at that 
time which required yet again additional training added to 
that. As our overseas presence remains high, we see great 
benefit in maintaining that type of predeployment training for 
these individuals.
    Mr. Connolly. And final point on training, Ms. Leonhart, 
does DEA have a program similar to the FBI in terms of 
predeployment training?
    Ms. Leonhart. Yes, we do. It's called the Foreign 
Orientation Program, and in May 2012, we started--we were 
handing out State Department cable prohibiting prostitution 
even if it's legal in a country. We also added extra slides to 
a presentation that our OPR gives to all the employees and 
their spouses before they head overseas, and that includes 
information about prostitution, information about security 
clearances. So there--they are informed before they go 
overseas.
    Mr. Connolly. OK. Thank you. My time is up. Mr. Chairman, I 
just would like to pursue with you at some point this whole 
issue of training because I think that has a great bearing on 
what was allowed to happen.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you.
    Now recognize the gentleman from North Carolina, Mr. 
Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    Ms. Leonhart, you've been with DEA for how many years?
    Ms. Leonhart. 35.
    Mr. Meadows. 35 years, and as I understand it, about 5 
years as--in your current position from----
    Ms. Leonhart. Since 2010.
    Mr. Meadows. Since 2010. So you take this very seriously 
being part of law enforcement. You know, I enjoy a great 
relationship with law enforcement back home and in the 
standards of which they take, and so standards that are 
violated by some within our ranks really paint a very bad 
picture for the rest who serve diligently. Wouldn't you agree 
with that?
    Ms. Leonhart. Yes. These are, you know, a few compared to 
the 4,600 agents that work for DEA. I'm very proud of our 
agency, and this hits us hard.
    Mr. Meadows. Well, and it should hit you hard, and it 
sounds like that, you know, you keep saying that you're 
appalled and that you just can't believe this kind of behavior, 
but my concern is, is in 1994 there was a GAO report that 
outlined, and you were there at that particular time, that 
outlined, you know, sexual misconduct within the agency. Then 
again in 2004, there was an OIG study that talked about this 
same kind of inappropriate behavior. And yet here we are today 
with a new OIG report that's over 100 pages in length, but 
we're addressing a decade-old cultural problem. Aren't we? This 
is not new to you. Is that correct?
    Ms. Leonhart. This is--this is new to me in this position, 
but in law enforcement, obviously every--every company, every 
organization has some people that are not going to follow the 
rules, and to see what happened back in 2000 to 2003 in 
Colombia, to see what happened in 2009 with the incident with 
the agent in Bogota, and then to see Cartagena, this is our 
opportunity to make sure that that culture, if there was one 
that existed, that there's--there's no doubt that employees 
know that this is unacceptable and see what will happen to 
them. That is why firing the three employees, agents, after 
Cartagena sets the tone for what happens from here on.
    Mr. Meadows. Well, it might if it wasn't reinforced in 
other ways. And let me tell you, you keep coming back to 
Cartagena because it really may be the only time that there 
have been people that have actually been disciplined for 
improper conduct. Wouldn't you agree with that? So you keep 
running back to this as a good example, but yet your directive 
didn't come out until 2 years after that event. You were 
bragging about your directive that you sent out. Didn't that go 
out in 2014?
    Ms. Leonhart. Yes. It went out----
    Mr. Meadows. So why--if you were concerned about the 
culture, wouldn't it have gone out immediately after the event, 
or is it just that the press has started to report this as a 
problem and now it's a problem for you?
    Ms. Leonhart. No. Actually, we--we had discussion, the 
executive staff, on what--what things we should put in place, 
and we started putting things in place in 2012 after the 
discovery of what happened in Cartagena.
    Mr. Meadows. So it is your testimony that it took you 2 
years to figure out what to put in a directive? Is that your 
testimony here today?
    Ms. Leonhart. No. Actually, we drafted that back after a 
working group got together to decide what steps should we 
immediately put in place. We drafted that and on the heels of 
the Cartagena case being able to show here's what happens if 
you partake in this behavior. We had the case--disciplinary 
case finalized. We went out with a series of things. That 
memo--we had already put additional training--every basic agent 
training, every intel analyst training----
    Mr. Meadows. OK. I'm running out of time. So let me--let me 
do this one followup because I have reason to believe that some 
of the people that today you're saying maybe should have been 
fired but that you didn't give a directive, but I have reason 
to believe that some of them have actually gotten promotions, 
have gotten bonuses, and have gotten new assignments. Would you 
agree with that?
    Ms. Leonhart. I know that----
    Mr. Meadows. That some of them.
    Ms. Leonhart. I know that a number of them were promoted 
between the activity in 2000 and when it came to light in 2010. 
I can tell you that since the allegations were raised and 
investigated, there have been no promotions.
    Mr. Meadows. How about bonuses? Because I have reason to 
believe that there were bonuses that were given. I'm sure 
you've just looked into all of this. So were there bonuses 
given to some of those folks?
    Ms. Leonhart. Of the--I know that there were bonuses given 
to the regional director. I don't know about bonuses given to 
the--I don't know about----
    Mr. Meadows. So some bonuses were given to people who were 
directly involved in this particular thing that most Americans 
find offensive?
    Ms. Leonhart. The regional----
    Mr. Meadows. Yes--yes or no.
    Ms. Leonhart. No. The regional director was not----
    Mr. Meadows. Well, you said you just didn't know. So how 
would you know that----
    Ms. Leonhart. No. The regional director that got bonuses 
was not directly involved in this.
    I don't know as to the other employees.
    Mr. Meadows. So is it possible they got bonuses?
    Ms. Leonhart. It's very possible.
    Mr. Meadows. It's very possible. Because our intel would 
say that it is. So here's my--I appreciate the patience of the 
chair.
    If you would give, without names, because obviously that is 
critical, would you agree today to give the names and the 
number of people involved in this to the OIG so he can report 
back to this committee on how many of those people got bonuses? 
Would you agree to do that? Because I find that that's 
reenforcing a bad behavior, if they're getting bonuses. Would 
you do that? Would you agree to that?
    Ms. Leonhart. I will work with the department who is going 
to be giving you additional information here shortly to see 
about adding that in.
    Mr. Meadows. So we can get bonus information to see if 
these people that were involved in this got bonuses. And you 
can redact the names. I just want to know the number of them.
    Ms. Leonhart. So I'll discuss it with the department at----
    Mr. Meadows. So is that a no? I mean, you're the 
Administrator. You can make the decision. Are you going to give 
it to us or not?
    Ms. Leonhart. If I'm able to give it to you, you'll get it.
    Mr. Meadows. Mr. Chairman, I----
    Chairman Chaffetz. If the gentleman would yield.
    Mr. Meadows. Yes.
    Chairman Chaffetz. We're asking you to provide the 
information to the inspector general. Will you or will you not 
do that?
    Ms. Leonhart. If it was up to me to give it to you----
    Chairman Chaffetz. You're the administrator.
    Ms. Leonhart [continuing]. I'd give it to you.
    Chairman Chaffetz. You're the Administrator. Who do you 
have to ask? Who do you report to?
    Ms. Leonhart. The documents that are going to your 
committee were----
    Chairman Chaffetz. We're asking you to give them to the 
inspector general.
    Ms. Leonhart. If the inspector general wants that, we'll 
give him it.
    Chairman Chaffetz. Does the inspector general want that 
information?
    Mr. Horowitz. I'd be happy to take that information and 
look into the issue.
    Chairman Chaffetz. Will the inspector general report back 
to this committee at his----
    Mr. Horowitz. We will.
    Chairman Chaffetz [continuing]. Earliest convenience about 
these particular individuals?
    And to suggest that the more senior person wasn't directly 
involved, he was involved. Was he not?
    Ms. Leonhart. He was not involved in the activity.
    Chairman Chaffetz. Did he properly report up the chain of 
command?
    Ms. Leonhart. He didn't report it to the right place.
    Chairman Chaffetz. OK. So he was involved in it. He may not 
have been naked and having sex in his apartment like everybody 
else was, but he was involved. Correct?
    Ms. Leonhart. He failed to report to OPR.
    Chairman Chaffetz. That person should be included in the 
information that you give regarding bonuses and promotions. 
Now, can we also add into there promotions, title changes? 
Bonuses, title changes, promotions. Is that fair?
    Mr. Horowitz. Yes. We will followup.
    Chairman Chaffetz. Looking for a yes here from the 
Administrator.
    Ms. Leonhart. We'll work to get you that information.
    Chairman Chaffetz. Is that a yes or no?
    Ms. Leonhart. Yes. We'll get you that information.
    Chairman Chaffetz. Thank you.
    Gentleman have any other----
    Mr. Meadows. I thank the chair for their patience. I yield 
back.
    Chairman Chaffetz. Did you want to add something, Mr. 
Horowitz? It looked like you may have wanted to----
    Mr. Horowitz. No.
    Chairman Chaffetz. OK.
    We now recognize the gentleman from Wisconsin. He is now 
recognized for 5 minutes.
    Mr. Grothman. Sure. Couple questions for you. One of the 
things that's a little bit frustrating about this hearing, and 
I apologize. I feel a little bit sorry for you is that you've 
expressed concerns about some of the civil service protections. 
And so people back home understand civil service protections 
are very important because if we didn't have civil service 
protections, you could wind up at an agency like the IRS or 
something firing anybody who wasn't on the right side 
politically. Nevertheless, you have expressed frustration, and 
I do believe some of people are expressing the greatest anger 
at you today, or some of the people express anger at you may be 
the first to fight any change in those civil service laws.
    But could you give us some suggestions that you may have to 
make it easier to remove an employee who is a misbehaving 
employee? And I'll tell you one of the things that frustrates 
me today, and you can think about this when I talk about it. We 
have a situation in which people are just behaving in 
outrageous conduct. I mean, something just--you know, 
somebody--if a late night talk show host made it up you 
wouldn't believe it, but it really happened apparently. So 
things that are obviously wrong. It makes me wonder what's 
happening if we just have employees who aren't doing a very 
good job at their job--right--where it's a little bit more 
subjective. But could you give me any suggestions you'd have 
for changing the civil service laws?
    Ms. Leonhart. If you looked at giving us the same exemption 
as the FBI, I think that we then would be able to make sure 
that the penalties were appropriate.
    Mr. Grothman. And what would you think an appropriate 
penalty is for this behavior?
    Ms. Leonhart. I think this is outrageous behavior, and that 
knowing the facts of the cases as I do, without having to be 
concerned with the appeal rights and being able to sustain it 
in a Merit System Protection Board, I believe that some of 
these--some of the behavior would raise to the level of 
removal.
    Mr. Grothman. By ``removal,'' you mean they should be 
fired.
    Ms. Leonhart. Just like Cartagena, yes.
    Mr. Grothman. OK. Just because you kind of dance around, 
could you just describe to the public today why you feel this 
behavior was wrong so I get a sense? Why is this bad behavior? 
Could you explain in your own mind?
    Ms. Leonhart. Well, partaking--it's--it's wrong on a number 
of levels. Start with prostitution itself. You know, it's--
human trafficking is like the second highest illegal market 
besides drug trafficking. Look at all the efforts the 
government has been putting into--especially in recent years--
to go after the human trafficking threat. That's No. 1.
    No. 2, it is so far away from the type of conduct and 
ethical behavior that is required of someone to carry a badge 
as a Federal agent, that those are the reasons, and the 
security clearance issues. The security--putting--putting 
people and our information at risk are all reasons that I--this 
is appalling.
    Mr. Grothman. It is appalling. When I read this stuff, is 
it right that some of this stuff was maybe brought to the 
attention or made aware Colombian authorities? They were aware 
of this.
    Ms. Leonhart. Actually, the Colombian authorities, by the 
time this was discovered on the corruption of the two police 
officers, the Colombian national police did a great job in 
helping us convict them. And also they removed a number of 
Colombian national police officers who were involved in this 
same activity.
    Mr. Grothman. OK. I'll ask the same question to Mr. 
Horowitz there because he seems a little--could you comment on 
how you feel we should change without--with still keeping 
protections for people but change things a little bit so that 
we maybe had a little--not just outrageous conduct but even 
competent conduct out of the DEA.
    Mr. Horowitz. Well, within the current structure, there 
needs to be prompt reporting, prompt investigating, prompt 
disciplinary action, and follow through. I mean, that's--within 
the current structure, that can be done. It's--you mention the 
Colombian national example. Those events that were learned 
about from the Colombian national officers who were corrupt and 
disclosed the information related to the 2001, 2004 events. All 
of the DEA officials involved in those events down in Colombia 
said nothing about it. Think about it: It was learned 8 years--
6, 7, 8 years later when corrupt Colombian national officers 
disclosed it. That's a problem, a serious problem, that no one 
thought that that was reportable to headquarters and that there 
needed to be follow through, whether it's the current system, 
frankly, whether it's under an FBI regime, that was the 
fundamental flaw there. Right? No one thought it was important 
enough or serious enough to raise to headquarters.
    Mr. Grothman. Well, it's good that the Colombian people had 
a little higher standards.
    Mr. Horowitz. Well, these were the corrupt officers.
    Mr. Grothman. Right. But, I mean, eventually that they--
that they felt there was something wrong.
    Mr. Horowitz. Right. That they felt it was wrong and once 
they of course got arrested, they were more than happy to come 
in and report out on what had occurred.
    Mr. Grothman. Thank you.
    Chairman Chaffetz. Thank the gentleman.
    Now recognize the gentleman from Alabama, Mr. Palmer, for 5 
minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    Ms. Leonhart, is there any policy against turning over DEA 
weapons or communication devices to foreign agents or any non-
DEA or non-U.S. officials?
    Ms. Leonhart. If I hear you right, you're asking about 
prohibition on turning over a device?
    Mr. Palmer. Not having immediate supervision of the weapons 
and devices that belong to an agent.
    Ms. Leonhart. Well, No. 1, securing your weapon, that's--
that's required.
    Mr. Palmer. No. I'm not asking you about that. I'm asking 
you is there any policy at the DEA that would result in any 
kind of reprimand or punishment for not having immediate 
supervision of your weapons and communication devices? That's a 
yes or no.
    Ms. Leonhart. It could fall under--depending on the 
circumstances----
    Mr. Palmer. No. It's a yes or no. You either have a penalty 
for not securing your weapon and your communications devices 
because there are things on those communications devices that 
could be used against other agents, against this country.
    Ms. Leonhart. It could fall under poor judgment. There's a 
number of areas--there's policies on securing----
    Mr. Palmer. Poor judgment has already been--it's already 
been pointed out. Poor judgment's not one of those official 
criteria, and what happened here, you talked about these 
corrupt police officers, is it true that the same officers who 
helped facilitate these parties, may have helped pay for the 
prostitutes, supervised, had control of the agents' weapons and 
communication devices, possibly the security--their badges, and 
is that also the case?
    Ms. Leonhart. Part of the report is that while some of the 
agents were involved in that activity----
    Mr. Palmer. No. It's a yes--it's a yes or no.
    Ms. Leonhart. Yes.
    Mr. Palmer. OK. As egregious as the activity that the 
agents were involved in, which is, in many respects, a crime 
against humanity because of the ages of these girls, could you 
not find a reason to reprimand or fire agents for turning over 
their weapons and their communication devices to foreign 
nationals? I mean, for crying out loud, China is investing in 
South America and Latin America. They're going to spend another 
$250 billion over the next 10 years down there. Did it not 
occur to anyone that this might also be a national security 
breach or a problem along that line?
    Ms. Leonhart. Someone doing a security adjudication could 
look at that and find that those are reasons why a security 
clearance should be suspended and revoked.
    Mr. Palmer. Were they for any of these people?
    Ms. Leonhart. For the Bogota case, their clearances were 
never looked at.
    Mr. Palmer. OK. Let me ask you this, and, Mr. Chairman, you 
brought this up. Who is your immediate supervisor? Who do you 
report to? Who has the authority to hold you accountable for 
the oversight of the DEA?
    Ms. Leonhart. The Deputy Attorney General.
    Mr. Palmer. OK. Have you discussed this with the Deputy 
Attorney General and how to proceed with this?
    Ms. Leonhart. I briefed the Deputy Attorney General on 
these cases recently.
    Mr. Palmer. Did he make any recommendations about how to 
proceed?
    Ms. Leonhart. Yes. The security clearances are currently 
being reviewed by----
    Mr. Palmer. No. I want to ask you something more specific. 
Did the Deputy Attorney General express any reservations about 
how the DEA has handled this, and in the discussions, was there 
any discussion about how to respond to the requests from the 
Inspector General's Office? Office of the Inspector General.
    Ms. Leonhart. I've had multiple conversations with the 
DAG's Office on document--turning over documents to the OIG. 
And they've given us good guidance on that.
    Mr. Palmer. So they gave you good guidance. So that means 
they approved of not turning over the documents that the 
inspector general requested?
    Ms. Leonhart. No. Actually, we didn't know--we were worried 
about the victim--victims' names and how to handle that.
    Mr. Palmer. Mr. Horowitz, you have said that there have 
been numerous instances where the FBI has failed to submit 
sufficient material to the office. You mentioned it about the 
DEA. When you were here in January and you spoke of agencies, 
particularly the FBI and others delaying production of 
material, I asked you then, did this rise to obstruction? You 
said it had a significant impact on reviews but failed to go as 
far as--you failed to go as far as calling it obstruction. I 
want to ask you that again. Are you willing to call it 
obstruction now?
    Mr. Horowitz. What occurred back in 2013 when we were given 
redacted documents, it impeded and obstructed our ability to 
move forward with this investigation in a timely manner, and it 
took months, and it required me to elevate it to the leadership 
of both agencies. And it was when I elevated it that we got--
got the reaction, but I didn't have to do that with ATF and the 
Marshal Service, and I shouldn't have to do that.
    Mr. Palmer. Right.
    Mr. Horowitz. And I'm still having to do that in multiple 
instances.
    Mr. Palmer. You know, I'm not trying to put you on the 
spot, but it appears to me that you've been obstructed.
    Mr. Horowitz. Yep. I--I think, in this instance, we were 
obstructed.
    Mr. Palmer. Ms. Leonhart--is there still information that 
you'd like to get from the DEA?
    Mr. Horowitz. I think at this point we made a decision to 
simply move forward, issue the report, even though we had 
concerns about both the FBI and DEA's productions because this 
was so important to put forward. And, frankly, at this point, 
we've got other reports to do and get to that we still have the 
same issues on, just different context.
    Mr. Palmer. Is there additional information you'd like to 
have----
    Mr. Horowitz. On this issue, no.
    Mr. Palmer. OK.
    Mr. Horowitz. On others, yes.
    Mr. Palmer. Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank the gentleman.
    Now recognize the gentleman from Massachusetts, Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    Mr. Chairman, I'm not sure if the memo from Attorney 
General Holder has been admitted into evidence, but in case it 
hasn't, would you without----
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Lynch. OK. Great.
    Ms. Leonhart and Mr. Horowitz, in the Attorney General's 
memo for all department personnel, dated April 10, 2015, 
subject, ``Prohibition on Solicitation of Prostitution,'' it 
says that solicitation of prostitutes creates a greater demand 
for human trafficking victims and a consequent increase in the 
number of minors and adult persons trafficked into commercial 
sex slavery.
    Do you agree with that? Do you agree with that assessment?
    Mr. Horowitz. I certainly think it raises the risks.
    Mr. Lynch. Do you agree with that?
    Ms. Leonhart. I certainly do.
    Mr. Lynch. Yes. OK. And also in--you know, under the 
Department of Homeland Security regs and a couple of the 
statutes we have, what we're talking about here, the 
solicitation of prostitutes for 15 to 20 parties, is clearly 
within the definition of human trafficking. And--and yet the 
DEA is actually charged--I know that Mr. Farenthold and Mr. 
Gosar and myself and Mr. Issa were down in Central America 
recently, and that's a big part of the DEA's mission is really 
to combat human trafficking. And we actually give grants to the 
department of--to the DEA and to the FBI and to State 
Department as part of the Trafficking Victims Protection Act 
and the Violence Against Women Act. We give--we give grants to 
your agency to prevent human trafficking. Prevent prostitution. 
And yet the very people--the very departments that are getting 
this money, in this case, are engaging in human trafficking, 
and it just brings me, you know, back to the unbelievability of 
what has happened here. It is really--it is really 
unbelievable.
    Under the Douglas Factors that we use in determining 
discipline, one of the factors is the seriousness of the 
offense and whether the offense is--is in direct violation of 
the agency policy. And the notoriety of the offense and whether 
that offense prohibits that individual from doing their job.
    So, in this case, we have DEA agents that are still on the 
job that are receiving Federal grants to stop trafficking who 
have already engaged and admitted to trafficking, and I don't 
see the end of this. I don't see the end of this if we leave 
this situation the way it is. And so, Ms. Leonhart, you know, I 
wouldn't believe this would be necessary, but we may need to 
amend Title V. We may have to put in a provision that says 
that--that holds you accountable because right now you could 
pass it off to somebody below you. You don't have to accept 
responsibility, and you haven't, and that's--you know, that's 
clear. But if we adopted an amendment to Title V that said 
outrageous and/or criminal conduct in direct violation of an 
agency's mission would give you the ability to fire somebody, 
that would solve this, I think, in part. And also the failure 
to report because that's where this has started, where the 
managers at the lower levels did not report, did not kick this 
up the chain of command, and so we need to hold them 
accountable too. And there should be a provision that says 
refusal or failure to report an offense like this will give the 
agency and the government the ability to claw back pensions, 
claw back salary that was accepted by those individuals who 
were violating the law. It's a shame that we have to get to 
this, but, you know, I actually think that that may be where 
we're at right now.
    I'll yield back the balance of my time.
    Chairman Chaffetz. Thank the gentleman.
    I'm going to recognize myself. I do have a series of 
questions as we wrap up here.
    Administrator Leonhart, you became the--you've tried to 
paint a picture of this as a decade ago. I heard you say 
multiple times 10 years ago. When did you become the Deputy 
Administrator?
    Ms. Leonhart. I was confirmed in March 2004.
    Chairman Chaffetz. How many deputies are there? Deputy 
Administrators are there?
    Ms. Leonhart. There's one.
    Chairman Chaffetz. So you were the sole Deputy 
Administrator, and then you became the acting administrator, 
and when was that?
    Ms. Leonhart. 2007.
    Chairman Chaffetz. And then you were confirmed in 2000----
    Ms. Leonhart. Ten.
    Chairman Chaffetz. --10. So it's pretty safe to say that 
you've had your finger on the pulse of this department or this 
agency for more than a decade. Correct? You've been there 35 
years. Correct?
    Ms. Leonhart. Either as the Deputy Or the Acting 
Administrator Or Administrator, yes, since 2004.
    Chairman Chaffetz. One of the things that you said that is 
troubling in a long list and was brought up by Mr. Lynch, is 
the idea that--and it was in response to some of the gentlemen 
over here who asked the question about those that were directly 
involved. I got to--I want you to seriously consider--I want 
all the departments and agencies to seriously consider--in my 
mind, they are directly involved if they fail to report. You 
may not have been the person who was directly fully engaged in 
the inappropriate behavior, but once you know about it, you 
have a responsibility to deal with it under the department 
policies. Correct?
    Ms. Leonhart. That's correct.
    Chairman Chaffetz. So when you suggest that they weren't 
directly involved, that offers me great concern. Do you 
understand that?
    Ms. Leonhart. I do understand that. I was--I was just 
making the point that he wasn't involved in the behavior. He 
failed to report and--and that's what his shortcomings were.
    Chairman Chaffetz. Part of the abhorrent behavior is 
covering it up. That's the concern. And that's essentially what 
it is. It's covering it up by not reporting it up the chain 
because, as Mr. Horowitz pointed out, the only--the only 
alternative based on the law enforcement component offense 
tables in appendix 3 of sexual misconduct and sexual harassment 
is removal. It's the only one. There's no--there's no ifs, ands 
or buts. There's no ambiguity. I know there are things that 
we're going to look at with Title V and whatnot, but removal is 
the only option.
    So let me ask you, Administrator, do you believe that 
soliciting prostitution is sexual harassment?
    Ms. Leonhart. No. I believe that prostitution is sexual 
misconduct.
    Chairman Chaffetz. Explain the difference between sexual 
misconduct and sexual harassment.
    Ms. Leonhart. Sexual harassment is a workplace behavior. 
It's what you--sexual harassment is something that affects the 
employees in the workplace or an employee.
    Sexual misconduct is outside of the work--outside of the 
workplace, like prostitution. There's a difference. Does it 
affect the employee getting a raise? Does it affect an employee 
getting a transfer, getting a particular job? Is it a hostile 
work environment? Those are sexual harassment.
    Sexual misconduct is a different--you could have sexual 
misconduct that's also sexual harassment, but there is a 
difference. Prostitution would be sexual misconduct.
    Chairman Chaffetz. So explain to me then exactly what you 
believe--fully more explain to me what you think sexual 
harassment is. What would be some examples, and what's sexual 
harassment?
    Ms. Leonhart. Unwelcome remarks. Touching an employee. A 
supervisor touching an employee. A supervisor making threats 
about you're not going to get that promotion unless you do A, 
B, C, and D. Those kinds of activities.
    Chairman Chaffetz. Mr. Horowitz, do you want to weigh in 
here, the difference between sexual harassment and sexual 
misconduct?
    Mr. Horowitz. Well, I think it's based on what you have 
before you which is what's written down as the definitions and 
looking at the actions. Some of these--for example, one of the 
incidents that we cite talks about the assistant regional 
director making inappropriate sexual comments, forcing others 
to watch pornographic movies, yelling at employees, other kinds 
of actions obviously clearly within the definition of sexual 
harassment.
    Chairman Chaffetz. So, within the report, do you believe 
that those are sexual harassment?
    Ms. Leonhart. That's sexual harassment.
    Chairman Chaffetz. So if you're a DEA agent in this case, 
and you're having sex--commercial sex paid for, you don't 
believe that that's sexual harassment?
    Ms. Leonhart. No. That's sexual misconduct.
    Chairman Chaffetz. Is procuring a prostitute sexual 
harassment?
    Ms. Leonhart. It would be sexual misconduct. It didn't 
happen----
    Chairman Chaffetz. No harassment.
    Ms. Leonhart. It's not the workplace.
    Chairman Chaffetz. It happened in government housing.
    Ms. Leonhart. It's not--it's not behavior against an--a 
fellow--another employee.
    Chairman Chaffetz. So, in your mind, in your world, which 
is a different planet than I live, it's not sexual harassment 
if you do something to somebody who is not a Federal employee?
    What if they were here in the Washington, DC.--or you were 
in charge of Los Angeles field office. Is it sexual harassment 
if they go up to somebody in Los Angeles and start saying, you 
know, some ridiculous comments and trying to solicit somebody? 
That's just harassment? Or isn't? It's not in your world.
    Ms. Leonhart. As it's--as it's defined for government, as 
it's defined by the EEO in EEO terms, it's all workplace 
related.
    Chairman Chaffetz. So, in the course of the workplace, 
somebody they're investigating, if they accept--the Federal 
employee accepts commercial sex, is that sexual harassment?
    Ms. Leonhart. That's sexual misconduct.
    Chairman Chaffetz. We'll have to further explore this 
because I think this is--we're getting to the heart of one of 
the biggest problems here, which is, in your world, which I 
don't think is the real world, the charge here for the person 
in Bogota was improper association. Does that sound like the 
appropriate charge?
    Ms. Leonhart. For which person in Bogota?
    Chairman Chaffetz. The Bogota--the DEA agent in Bogota in 
July 2009 when they engaged--this is the case with the 
prostitute. They had a payment dispute. He throws a glass at a 
woman. A security guard sees this happening. There's no doubt 
about the facts, according to your previous testimony. So that 
was not sexual harassment?
    Ms. Leonhart. It's sexual misconduct.
    Chairman Chaffetz. Wow. And under sexual misconduct, do you 
think that improper association is one of the proper charges? 
Do you think this person was properly--I guess the word is 
``charged?'' Based on that case and everything that you know, 
this person was suspended without pay for 14 days for conduct 
unbecoming and improper association. Do you believe that that 
was the proper charge for that person?
    Ms. Leonhart. I believe those are two proper charges. The 
deciding official had a number of other charges that they could 
have looked at as well.
    Chairman Chaffetz. I'm asking what you personally believe. 
What do you believe they should have been charged with, or do 
you believe that that was the proper conclusion?
    Ms. Leonhart. I think it would be conduct unbecoming. It is 
improper an association. I would have concerns about false 
Statements. I have a number of concerns with those cases.
    Chairman Chaffetz. Any other--your professional opinion, 
your experience, you worked for the OPR, you've been at the 
agency for 30-plus years. You've been either the Acting Or the 
Deputy Or Administrator for more than a decade. Do you believe 
that this person in Bogota was properly charged, or do you 
believe that they fell short? What else--if they did fall 
short, what else do you think they should have been charged 
with?
    Ms. Leonhart. I do believe it felt short.
    Chairman Chaffetz. So what else should they have been 
charged with?
    Ms. Leonhart. As I said, it's not so much the charge; it's 
the penalty. The other charges that could have been not----
    Chairman Chaffetz. The charge determines the penalty. And 
when you say that this person engaging with a prostitute, 
throwing a glass at her, I mean, how many things could we list 
out that are wrong with that at every step? And improper 
association is the one that they go with?
    Ms. Leonhart. The penalty for improper association and 
conduct unbecoming can be removal.
    Chairman Chaffetz. And it was only 14 days. We even has an 
eyewitness. Security guard. Worked for the Federal Government.
    Do you think any of these cases that we brought before you 
should be--there should be additional charges?
    Ms. Leonhart. Again, not knowing all the facts that the----
    Chairman Chaffetz. You said you knew all the facts. You 
just issued a memo on March 26 saying that you had fully 
investigated this.
    Ms. Leonhart. If I can----
    Chairman Chaffetz. It says, ``These allegations were fully 
investigated by DEA Office of Professional Responsibility.'' 
You sent this out at 5:33 p.m., on March 26, 2015.
    Ms. Leonhart. Not knowing all the circumstances that the 
deciding officials, who are the only ones that can decide 
punishment in DEA, not knowing everything they took into 
consideration, they--they could have--by charging conduct 
unbecoming and improper association, the penalties are up to 
removal.
    Chairman Chaffetz. Mr. Horowitz, do you have a comment on 
this?
    Mr. Horowitz. Well, I think the concern we found as we cite 
in our report is that they were charged with offenses, such as 
conduct unbecoming, poor judgment, which, by the way, isn't the 
category, and others, that were inconsistent. And the concern 
is, and we deal with this in our own agency when we have to 
look at individuals who may have engaged in misconduct, you 
want to charge what the number of charges should be in part 
because there's precedent. You look to what prior individuals 
got for similarly situated conduct under similar charges, and 
so that's one of the concerns we have as we lay out here as to 
the importance of consistent charging and charging the 
appropriate offense.
    Chairman Chaffetz. To the Administrator, are you--is the 
DEA part of the intelligence community?
    Ms. Leonhart. A sliver of DEA--a sliver of DEA is a part of 
the intelligence community.
    Chairman Chaffetz. Is it governed by the intelligence 
community directive No. 704?
    Ms. Leonhart. That sliver of the agency is, yes.
    Chairman Chaffetz. Define that sliver, please.
    Ms. Leonhart. Under 60 positions in DEA within the 
Intelligence Division.
    Chairman Chaffetz. Those that are serving overseas, would 
they be subject to this?
    Ms. Leonhart. Depends on the position. There are in some 
countries some intelligence analysts that would be under that. 
The special agents would not.
    Chairman Chaffetz. Again, we're getting close to wrapping 
up. I promise. We're not at half time. We're well past that.
    So walk me through security clearances. Who makes the 
determination who gets the security clearance, and who makes 
the decision as to whether or not it's revoked and when?
    Ms. Leonhart. The same office that determines that a new 
employee gets a security clearance, that same office makes a 
determination----
    Chairman Chaffetz. What office is that?
    Ms. Leonhart. Office of Security Programs. They do all 
adjudicating of security clearances for new employees, for 
contract employees, for anybody that's going to be in the work 
force within DEA. The same office also handles review--periodic 
reinvestigations and handles reviews of people who already have 
security clearances. So, for instance, in the Cartagena case, 
OPR referred--referred the case over to Security Programs when 
they had completed their investigation. And Security Programs 
did a complete review of their security clearances, adjudicated 
it, made a decision that there was enough to move to suspend 
the clearance. And then the agency moved for, because the 
person no longer has a security clearance, removal from service 
because they can't be a DEA employee without having a security 
clearance.
    Chairman Chaffetz. So what are the standards by which you 
can have and not have a security clearance? Where is that 
standard?
    Ms. Leonhart. There's a number of things they look at. The 
main thing is securing--securing information, national security 
interest information.
    Does this person with their----
    Chairman Chaffetz. Contact with a foreign national, allowed 
or not allowed? Unreported, I should say.
    Ms. Leonhart. Not allowed if it's unreported, and there's 
rules for reporting.
    Chairman Chaffetz. Is there a document that determines--
that governs what you will and will not give to--for security 
clearances?
    Ms. Leonhart. There's a document that every employee is to 
fill out, an SF86 that----
    Chairman Chaffetz. But it's just a couple of dudes down in 
the bowels of the DEA that just make a random decision, or how 
is the decision made?
    Ms. Leonhart. No. They're trained on adjudication. They 
review--if there's anything that is a red flag for them like 
past----
    Chairman Chaffetz. Sexual misconduct a red flag?
    Ms. Leonhart. Sexual misconduct, if a person was 
disciplined, received any discipline, they on their--on their 
form, check it. Office of Security Programs does a review of 
that. The gentleman----
    Chairman Chaffetz. Has the Office of Security, have they--
have they ever revoked somebody's security clearance for people 
engaging in prostitution?
    Ms. Leonhart. I don't know about prostitution. I know that 
they have revoked security clearances. So other than the 
three----
    Chairman Chaffetz. Right.
    Ms. Leonhart [continuing]. From Cartagena, I'm not sure.
    Chairman Chaffetz. You're just the Administrator.
    Mr. Horowitz, have you looked into the security clearance 
possibilities?
    Mr. Horowitz. We didn't look into what could have happened 
had they been referred to the Office of Security Programs 
primarily because the concern we saw was that they weren't 
being referred to the Office of Security Programs. So we 
weren't in the position to review what actions they took with 
regard to these matters because we learned that OPR, when they 
did finally get these allegations, never turned around and sent 
them to the OSP to look at.
    Chairman Chaffetz. What do you say that about, Ms. 
Leonhart?
    Ms. Leonhart. That's one of the changes we've put in place.
    Chairman Chaffetz. When?
    Ms. Leonhart. November. November of last year. We--we've 
never had--in the history of DEA, we've never had a formal 
mechanism for those security clearances to be reviewed upon an 
OPR investigation.
    Chairman Chaffetz. So you were the Administrator Or the 
Deputy Administrator or the Acting Administrator for almost 10 
years at that point and you had never had that policy in place. 
It seems like a, well, duh.
    Ms. Leonhart. We never had a formal policy. It would be up 
to the Office of Professional Responsibility to flag an 
internal investigation that had security issues and then to 
refer that over to security programs. So we've set up a 
mechanism for that to happen automatically.
    Chairman Chaffetz. So were those recommendations made 
before or after the draft report from the inspector general?
    Ms. Leonhart. The recommendation that security programs--
that Office of Professional Responsibility flag security 
violations and give them to security programs was happening 
long before that.
    What we did is, in Cartagena, made sure that the security 
clearances reviewed--were reviewed and then, more recently, in 
November, set up a mechanism so that security programs and OPR 
have a mechanism to pass on a regular basis security clearances 
over.
    Chairman Chaffetz. That's just unbelievable to me. It 
just--you know, there are some things you just think--you just 
think this has to be happening. On the one hand, you've got 
this problem--I mean, we've listed out the host. This is not 
one incident. I mean, we're going to have some people do 
something stupid somewhere. People are going to make mistakes. 
People are going to get themselves into trouble. I get this. 
But this is happening with such frequency. To not have that 
moved up the chain, for you to earlier not--say, Well, they 
weren't directly involved. You have got to hold everybody 
accountable to get that thing all the way to the finish line. I 
just don't understand why you personally don't take a hand in 
that.
    Mr. Horowitz has referenced these made-up categories of 
offenses. Why did you make those up?
    Ms. Leonhart. That's how employees for the last 40 years 
have been charged at DEA. So that----
    Chairman Chaffetz. So never mind the guidelines. You just--
so we just keep doing it like we did 40 years ago. What?
    Ms. Leonhart. Part of--part of charging by the Board of 
Conduct and by the deciding officials is to look at agency 
precedent and government precedent and so the----
    Chairman Chaffetz. The problem though--and, again, we've 
exhausted this. We're getting to the end--is that this is a 
problem. You say, you come to--you get called before this 
committee and say, Oh, it's terrible; it's awful. But you, you 
personally have been responsible for this for more than a 
decade, and you didn't do anything about it. You may cry in the 
mirror. But I'm telling you, you are in a position to do it and 
you didn't.
    And after Cartagena, that should have been a wake-up call, 
and it took you 2 years to get out a memo, 2 years, as Mr. 
Meadows brought up. I--I--we have a lot more that we need to go 
through.
    Mr. Horowitz, are there any other outstanding issues that 
you need help with from the department, the Drug Enforcement 
Agency?
    Mr. Horowitz. With the Drug Enforcement Agency, no.
    Chairman Chaffetz. With the FBI?
    Mr. Horowitz. We have, not as to this review, but as to at 
least four other ongoing reviews, we still do not have all the 
records that we need because of the FBI's continuing process of 
reviewing records, determining what it is allowed under its 
legal judgment to provide to us, go through that process, go to 
the Attorney General or the Deputy Attorney General, get their 
approval and then get it to us. So as to several ongoing 
reviews, we still do not have all the materials that are 
responsive to our requests.
    Chairman Chaffetz. So, Mr. Perkins, why does the FBI think 
that they're so special and don't have to adhere to the law and 
don't do what the other agencies are doing within the 
Department of Justice?
    Mr. Perkins. Mr. Chairman, we are adhering to the law. I 
take exception with the inspector general's comments along 
those lines.
    Let me tell you, sir, there are--in his latest letter, 
dated yesterday, his 218 letter as we refer to them, were five 
investigations noted. The records, they are--that they wish to 
receive; they're being delayed--involve email. We have turned 
over 35,000 emails to them. There are 200 emails in question 
out of 35,000 that we are working with them to go through. We 
believe in the rule of law. We have a legal disagreement with 
the Inspector General.
    Chairman Chaffetz. Mr. Horowitz.
    Mr. Horowitz. Can I be clear? They're not working with us 
to get us the 200 emails. They haven't given us the 200 emails. 
Our understanding is it's because they believe they have a 
legal review to conduct. That's why our--what our understanding 
is as to why we're not getting them.
    For several of these matters, these are multi months we've 
been waiting for them. There is no reason why we should not be 
getting the materials immediately. None whatsoever. I 
understand they have a legal position that is different. 
Frankly, the easiest way to resolve this--and I think on this 
we're in complete agreement--is if the Office of Legal Counsel 
would simply issue its opinion, I think, we would both say we 
would be very satisfied on that point.
    Chairman Chaffetz. And how long has this been pending at 
the OLC?
    Mr. Horowitz. Well, May will be the 1-year anniversary.
    Mr. Perkins. I concur with the inspector general. We--we 
will follow the OLC opinion to the letter.
    Chairman Chaffetz. Why are you different than the other 
departments and agencies within the Department of Justice?
    Mr. Perkins. I can't speak for the other agencies, Mr. 
Chairman. What I can speak for is matters involving rule 6(e), 
matters involving the Financial Privacy Act and other matters 
that we believe--we strongly believe we have a legal 
responsibility to review and provide them to the inspector 
general.
    Chairman Chaffetz. What are you not willing to share with 
the inspector general?
    Mr. Perkins. Any number of series of items. As I mentioned, 
for instance, rule 6(e) material, there are certain aspects 
from----
    Chairman Chaffetz. Explain that people so people can 
understand.
    Mr. Perkins. I'm sorry.
    Chairman Chaffetz. Yes, yes.
    Mr. Perkins. --6(e) of the Rules of Criminal Procedure, the 
secrecy rules involving grand jury information.
    Chairman Chaffetz. But you had given that to them 
previously?
    Mr. Perkins. Once--once matters had been reviewed, once 
matters are----
    Chairman Chaffetz. No. But it had been a longstanding 
practice of the FBI to provide the inspector general this 
material. Correct?
    Mr. Perkins. I can't speak to that, sir.
    Chairman Chaffetz. You can't speak to the history of the 
FBI document production? That's why you're here.
    Mr. Perkins. Yes, sir. We can--we provide the information 
once there has been a legal review that says--that we determine 
legally that we are on solid ground to provide the information.
    Chairman Chaffetz. But that's a change; correct?
    What was it before, Mr. Horowitz?
    Mr. Horowitz. Pre-2010, there was no such objection from 
the FBI as to wiretap information, Fair Credit Reporting Act 
information, grand jury information. We got that material. In 
fact, in a 1998 and 1999 proceedings in District Court in 
Oklahoma, the department itself took the position that we were 
entitled to grand jury material and two Federal judges agreed.
    This has all changed since 2010 with no change in the law. 
The only thing, frankly, that occurred was several hard-hitting 
OIG reviews about how the FBI was handling some of its national 
security authorities. Other than that, nothing changed in 2010.
    Chairman Chaffetz. And, Mr. Perkins, that's the concern 
from this committee. And we--we have hundreds of people working 
for the Inspector General's Office there in the Department of 
Justice intending to be the fair arbiters who can get in and 
look under the hood and see and ferret out these problems.
    And, quite frankly, this--the reason that the DEA and the 
FBI are here today is they're the problem children. We've cited 
several times that ATF and Marshals and others, this is not a 
problem. It's not an issue. Now, they've got problems in the 
Department within their agencies, don't get me wrong. They--
they've got things they've got to clean up and we're going to 
work with them on that. But the reason you're sitting here 
today in the hearing--and I know we were very focused on the 
DEA--but the two agencies, the FBI as well as the DEA, are 
impeding the ability to understand and unearth what the 
problems are.
    Mr. Perkins. Mr. Chairman, let me clarify. There's an 
apples-and-oranges issue here. With regard to this particular 
report that we're here today for, there are process issues 
within the FBI that the Deputy Director has made changes that 
the inspector general is aware of and those changes in our 
business process will eliminate these types of holdups----
    Chairman Chaffetz. All of them?
    Mr. Perkins. For these types of records. Not having to do 
with the other issues that he brings up in 218. We are 
waiting--as the inspector general said, if OLC would render 
their opinion, we will march forward and abide by it 100 
percent.
    Mr. Horowitz. And I would just add on that, I think we 
would both take any opinion at this point, good or bad, because 
this is ongoing. We completely disagree on the legal issue. And 
certainly we've questioned why all of a sudden in 2010----
    Chairman Chaffetz. And this is why--again, we're wrapping 
up. I got hours of questions on this, but we are going to wrap 
up here pretty quick.
    This act, the inspector general act, authorizes, ``to have 
access to all records, reports, audits, reviews, documents, 
papers, recommendations and other--or other material available 
to the applicable establishment which relate to the programs 
and operations with respect to which that inspector general has 
responsibilities under this act.'' It doesn't sound ambiguous. 
It doesn't sound like there--and there was no change in the 
law.
    It's just, in 2010, after the inspector general was 
unearthing a lot of very difficult things for the agency, they 
just decided, ah, we're going to change the rules. We're going 
to change the rules.
    I'm not suggesting, Mr. Perkins, that you personally did 
that. But the consequence is--the consequence is we have 
hundreds of people at the Inspector General's Office who can't 
do their job and you, the FBI, are standing in their way, and 
the DEA is standing in their way. And we're going to keep 
yanking you up here time after time after time if we have to.
    You know, I am fortunate enough to become the chairman of 
this committee. The very first hearing we had is on this. And I 
can promise you, I can promise you we will continue to yank you 
up here as long as this continues to be a problem.
    The act is clear, the inspector general is to have 
unfettered access to all records, not just the ones you want to 
choose from. I don't--this idea that an OLC opinion is just 
pending and it's going on for close to a year is just 
intolerable. And there's not a prevailing attitude within the 
FBI or the DEA that believes that the inspector general work is 
of value to those departments and agencies; otherwise, they 
would want them to come in and help clear their good name or 
ferret out problems and work to fix it.
    See, in this Nation, we're different. We are self-critical. 
I can't have this type of hearing in another nation. I probably 
couldn't go to Colombia and do this type of hearing, but you 
can in the United States, but it requires good people to allow 
somebody to come in and check and look under the hood, which is 
what the inspector general is supposed to do.
    We've had a long hearing. I appreciate your patience. We 
need your help and cooperation moving forward. Again, to the 
thousands of men and women who serve in these departments and 
agencies, I cannot thank them enough for putting their lives on 
the line. My grandfather was a career FBI agent. I care about 
the agency.
    Mr. Perkins. Thank you, sir.
    Chairman Chaffetz. OK. I care about law enforcement in this 
Nation, but we're going to do it the right way. We're going to 
do it the right way and allowing sexual harassment or 
misconduct to get a little slap on the wrist with 2 to 14 days 
paid leave is not acceptable. It wasn't then. It isn't now. And 
it shouldn't be moving forward.
    We're going to look toward other things we can do within 
law to give future administrators and directors more latitude.
    And to the inspector general, I thank you for this report. 
We wouldn't have known about it without your good work and the 
good people in your agency within the--and so we thank you.
    And this hearing stands adjourned.
    [Whereupon, at 1:11 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
